SIGAR                             Special Inspector General for
                                   Afghanistan Reconstruction




                                            SIGAR 15-7 Financial Audit




           USAID’s Afghanistan Vouchers for Increased
           Production in Agriculture Program: Audit of
           Costs Incurred by International Relief &
           Development, Inc.




                                                  OCTOBER
                                                      2014
SIGAR 15-7-FA/AVIPA
SIGAR
                                                 October 2014
                                                 USAID’s Afghanistan Vouchers for Increased Production in Agriculture Program:
                                                 Audit of Costs Incurred by International Relief & Development, Inc.

                                                 SIGAR 15-7-FA
Special Inspector General for                    WHAT THE AUDIT FOUND
Afghanistan Reconstruction                      Crowe Horwath LLP (Crowe Horwath) identified 14 material weaknesses and significant
                                                deficiencies in internal controls and 12 instances of material noncompliance with the
WHAT THE AUDIT REVIEWED
                                                cooperative agreement terms. Crowe Horwath found that International Relief &
On September 1, 2008, the U.S. Agency for       Development, Inc. (IRD) was not able to provide sufficient documentation to support
International Development awarded a             transactions and financial records for the Afghanistan Vouchers for Increased Production in
cooperative agreement to International Relief & Agriculture Program. For example, IRD could not provide adequate supporting
Development, Inc. (IRD) to implement the        documentation—for three armored vehicles—from which a determination regarding its
Afghanistan Vouchers for Increased Production compliance with the U.S. Agency for International Development’s (USAID) nonexpendable
in Agriculture Program. This program was        property disposition requirements could be made. In addition, IRD’s indirect costs charged to
intended to increase basic food crop            the award exceeded the approved amount by $929,103. Furthermore, IRD incorrectly
production in Afghanistan and enable the        calculated and recorded currency exchange transactions which resulted in an unreasonable
country to meet its food requirements by        cost passed on to the U.S. government. Lastly, IRD did not invest $11,657 in program
providing accessible and affordable agriculture income earned back into the program.
goods to farmers, thereby contributing to
                                                As result of these deficiencies and instances of noncompliance, Crowe Horwath identified
community and economic development
                                                $1,893,484 in total questioned costs, consisting of $294,513 in unsupported costs—costs
through cash-for-work programs.
                                                not supported with adequate documentation or that did not have required prior approval—
SIGAR’s financial audit, performed by Crowe     and $1,598,971 in ineligible costs—costs prohibited by the agreement, applicable laws, or
Horwath LLP (Crowe Horwath), reviewed $503 regulations.
million in expenses charged to the award from
                                                  Category                           Questioned Costs Total      Ineligible    Unsupported
September 1, 2008, through April 22, 2013.
The audit objectives were to (1) identify and     Fringe Benefits and Allowance                      $3,708         $3,708              $0
report on significant deficiencies or material    Equipment                                        $254,166              $0       $254,166
weaknesses in IRD’s internal controls related     Other Direct Costs                                 $5,350              $0         $5,350
to the award; (2) identify and report on          Contractual Costs                                $689,500       $654,503         $34,997
instances of material noncompliance with the      Indirect Costs                                   $929,103       $929,103              $0
terms of the award and applicable laws and        Fund Balance                                      $11,657        $11,657              $0
regulations, including any potential fraud or     Total                                          $1,893,484     $1,598,971        $294,513
abuse; (3) determine and report on whether
IRD has taken corrective action on prior        Crowe Horwath also determined that IRD held excessive advanced cash balances that
findings and recommendations; and               resulted in $5,754 in interest lost by the U.S. government. Crowe Horwath reviewed prior
(4) express an opinion on the fair presentation audits of IRD, but determined that the findings were not pertinent to this audit.
of IRD’s Special Purpose Financial Statement. Crowe Horwath issued a disclaimer of opinion on the Special Purpose Financial Statement.
See Crowe Horwath’s report for the precise      Specifically, Crowe Horwath was unable to verify the data present in the Statement and
audit objectives.                               therefore was prevented from issuing an opinion because (1) IRD was not able to produce
In contracting with an independent audit firm    sufficient audit evidence to determine if revenues earned under the award, as reported on
and drawing from the results of the audit,       the Statement, were materially accurate and fully verifiable; and (2) certain subcontract and
SIGAR is required by auditing standards to       subgrantee transactions were recorded inconsistently in the financial records.
review the audit work performed. Accordingly,    WHAT SIGAR RECOMMENDS
we oversaw the audit and reviewed its results.
                                                 Based on the results of the audit, SIGAR recommends that the Mission Director for
Our review disclosed no instances where Crowe
                                                 USAID/Afghanistan:
Horwath did not comply, in all material
respects, with U.S. generally accepted           1. Determine the allowability of and recover, as appropriate, $1,893,484 in questioned
government auditing standards.                        costs identified in the report.
                                                 2. Collect from IRD the $5,754 in interest payable to USAID.
                                                 3. Advise IRD to address the report’s 14 internal control findings.
                                                 4. Advise IRD to address the report’s 12 noncompliance findings.


          For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
October 7, 2014


Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Mr. William Hammink
Mission Director for Afghanistan
U.S. Agency for International Development


We contracted with Crowe Horwath LLP (Crowe Horwath) to audit the costs incurred by International Relief &
Development, Inc. (IRD) under a U.S. Agency for International Development (USAID) cooperative agreement to
implement the Afghanistan Vouchers for Increased Production in Agriculture Program. The audit covered
$502,999,986 in expenditures incurred from September 1, 2008, through April 22, 2013.1 The contract required the
audit to be performed in accordance with generally accepted government auditing standards issued by the
Comptroller General of the United States.

Based on the results of the audit, SIGAR recommends that the Mission Director for USAID/Afghanistan:

          1. Determine the allowability of and recover, as appropriate, $1,893,484 in questioned costs identified in
              the report.

          2. Collect from IRD the $5,754 in interest payable to USAID.
          3. Advise IRD to address the report’s 14 internal control findings.
          4. Advise IRD to address the report’s 12 noncompliance findings.
The results of Crowe Horwath’s audit are further detailed in the attached report.

We reviewed Crowe Horwath’s report and related documentation. Our review, as differentiated from an audit in
accordance with U.S. generally accepted government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on IRD’s Special Purpose Financial Statements. We also express no opinion on
the effectiveness of IRD’s internal control or compliance with the cooperative agreement, laws, and regulations.
Crowe Horwath is responsible for the attached auditor’s report and the conclusions expressed in the report.
However, our review disclosed no instances where Crowe Horwath did not comply, in all material respects, with
generally accepted government auditing standards issued by the Comptroller General of the United States.

We will be following up with your agency to obtain information on the corrective actions taken in response to our
recommendations.




John F. Sopko
Special Inspector General
  for Afghanistan Reconstruction

(F-025)


1 The program was funded by cooperative agreement number 306-DFD-A-00-08-00304-00. Implementation of the program
was initially planned to conclude by August 31, 2009, but was extended through 24 modifications which increased the
amount of Federal funds obligated from $33,212,124 to $469,701,416. This amount was supplemented with program
receipts to reach total costs incurred of over $500 million.
                  International Relief and Development, Inc.

                    Special Purpose Financial Statement

Afghanistan Vouchers for Increased Production in Agriculture (AVIPA) Program

           For the Period September 1, 2008, through April 22, 2013

                (With Independent Auditor’s Report Thereon)
SIGAR                                                                   International Relief and Development, Inc.




Table of Contents
TRANSMITTAL LETTER.......................................................................................................................... 1

SUMMARY ................................................................................................................................................ 2

INDEPENDENT AUDITOR’S REPORT ON THE SPECIAL PURPOSE FINANCIAL STATEMENT ...... 7

INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL ..................................................... 13

INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE.................................................................. 15

SECTION I: SCHEDULE OF FINDINGS AND QUESTIONED COSTS................................................. 17

SECTION 2: SUMMARY SCHEDULE OF PRIOR FINDINGS............................................................... 43

APPENDIX A: CALCULATION OF INTEREST OWED TO THE GOVERNMENT ............................... 44

APPENDIX B: RECALCULATION OF DASA OVERPAYMENT........................................................... 48

APPENDIX C: CALCULATION OF IMPUTED INTEREST (INCLUSIVE OF PROGRAM INCOME) ... 51

APPENDIX D: VIEWS OF RESPONSIBLE OFFICIALS ....................................................................... 55

APPENDIX E – AUDITOR’S REBUTTAL .............................................................................................. 63 




                                                              www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP

Crowe Horwath LLP is an independent member of Crowe Horwath International, a Swiss verein. Each member firm of Crowe Horwath International is a
separate and independent legal entity. Crowe Horwath LLP and its affiliates are not responsible or liable for any acts or omissions of Crowe Horwath
International or any other member of Crowe Horwath International and specifically disclaim any and all responsibility or liability for acts or omissions of
Crowe Horwath International or any other member of Crowe Horwath International. Crowe Horwath International does not render any professional
services and does not have an ownership or partnership interest in Crowe Horwath LLP. Crowe Horwath International and its other member firms are
not responsible or liable for any acts or omissions of Crowe Horwath LLP and specifically disclaim any and all responsibility or liability for acts or
omissions of Crowe Horwath LLP.
SIGAR                                            International Relief and Development, Inc.                         1




                                                                        Crowe Horwath LLP
                                                                        Independent Member Crowe Horwath International

                                                                        1325 G Street NW, Suite 500
                                                                        Washington D.C. 20005-3136
                                                                        Tel 202.624.5555
                                                                        Fax 202.624.8858
                                                                        www.crowehorwath.com

Transmittal Letter
July 28, 2014


To the Board of Directors and Management of International Relief and Development, Inc.
1621 North Kent Street, Suite 400
Arlington, Virginia 22209


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We appreciate the opportunity to provide to you our report regarding the procedures that we have
completed during the course of our financial audit of International Relief and Development, Inc.’s (“IRD”)
cooperative agreement with the United States Agency for International Development (“USAID”) funding
the Afghanistan Vouchers for Increased Production in Agriculture (“AVIPA”) Program.

Within the pages that follow, we have provided a brief summary of the work performed. Following the
summary, we have incorporated our report on the Special Purpose Financial Statement, report on
internal control, and report on compliance. We do not express an opinion on the summary or any
information preceding our reports.

When preparing our report, we considered comments, feedback, and interpretations of IRD, the Office
of the Special Inspector General for Afghanistan Reconstruction, and USAID provided both in writing
and orally throughout the audit planning, fieldwork, and reporting phases of the engagement.
Management’s final written responses have been incorporated into the final report and are followed by
auditor’s responses, which are intended to clarify factual or interpretive inconsistencies between the
findings as written and management’s responses.

Thank you for providing us the opportunity to work with you and to conduct the financial audit of IRD’s
AVIPA program.


Sincerely,



Bert Nuehring, CPA, Partner
Crowe Horwath LLP




                                          www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
SIGAR                                             International Relief and Development, Inc.            2




Summary
Background
International Relief and Development, Inc. (“IRD”) entered into a cooperative agreement with the United
States Agency for International Development (“USAID”) to provide accessible and affordable agricultural
goods to farmers, contribute to community and economic development through cash-for-work programs,
and provide for access to wheat and various other crops. The program, the Afghanistan Vouchers for
Increased Production in Agriculture (“AVIPA”), was funded by cooperative agreement number 306-DFD-
A-00-08-00304-00, which incorporated an initial Federal obligation of $33,212,124. Implementation of the
program was initially planned to conclude by August 31, 2009. Through execution of twenty-four
modifications to the cooperative agreement, the amount of Federal funds obligated was increased to
$469,701,416, and the program completion date was extended to April 22, 2013. During this period, the
scope of work was also expanded to incorporate stabilization efforts in various regions of Afghanistan and
to incorporate agricultural mechanization efforts in addition to food security efforts. Over the course of the
program, which spanned a period of September 1, 2008, through April 22, 2013 – inclusive of a pre-
award period – IRD incurred a reported $469,628,890 in Federal costs.

IRD also obtained co-payments (“co-pays”) from program beneficiaries for various farming inputs
provided by IRD either directly or indirectly to beneficiaries. IRD reported $33,382,753 in co-pays as
having been received. Of this amount, $33,371,096 in program costs was funded with co-pay receipts.

Throughout the program’s period of performance IRD collaborated with numerous implementing partners,
subgrantees, contractors, and USAID to execute upon the scope of work identified in the cooperative
agreement and subsequent modifications. As reported in IRD’s final report on the program, results
(unaudited by Crowe) included, but were not limited to:

     296,922 wheat seed voucher packages having been redeemed by farmers;
     Distribution of 258,560 packages to farmers as part of the seed distribution program;
     208,472 individuals graduated from training funded by the program’s stabilization component;
     33,822 jobs were created through cash-for-work activities; and
     658 small grants were disbursed to 422 cooperatives and associations including 60,300 farmers.

The program’s period of performance has concluded. However, the award has not been formally closed
pending finalization of the negotiated indirect cost rate agreement and submission of the final federal
financial report.

Work Performed
Crowe Horwath LLP (“Crowe”) was engaged by the Office of the Special Inspector General for
Afghanistan Reconstruction (“SIGAR”) to conduct a financial audit of IRD’s AVIPA program.

Objectives Defined by SIGAR
The following audit objectives were defined within the Performance Work Statement for Financial Audits
of Costs Incurred by Organizations Contracted by the U.S. Government for Reconstruction Activities in
Afghanistan:




                                           www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
SIGAR                                             International Relief and Development, Inc.           3



Audit Objective 1 – Special Purpose Financial Statement
Express an opinion on whether the Special Purpose Financial Statement for the award presents fairly, in
all material respects, revenues received, costs incurred, items directly procured by the U.S. Government
and balance for the period audited in conformity with the terms of the award and accounting principles
generally accepted in the United States of America or other comprehensive basis of accounting.

Audit Objective 2 – Internal Controls
Evaluate and obtain a sufficient understanding of IRD’s internal control related to the award; assess control
risk; and identify and report on significant deficiencies including material internal control weaknesses.

Audit Objective 3 – Compliance

Perform tests to determine whether IRD complied, in all material respects, with the award requirements
and applicable laws and regulations; and identify and report on instances of material noncompliance with
terms of the award and applicable laws and regulations, including potential fraud or abuse that may have
occurred.

Audit Objective 4 – Corrective Action on Prior Findings and Recommendations

Determine and report on whether IRD has taken adequate corrective action to address findings and
recommendations from previous engagements that could have a material effect on the special purpose
financial statement.

Scope
The scope of the audit included the period September 1, 2008, through April 22, 2013, for the AVIPA
program. The audit was limited to those matters and procedures pertinent to the cooperative agreement
that have a direct and material effect on the Special Purpose Financial Statement (“SPFS”) and
evaluation of the presentation, content, and underlying records of the SPFS. The audit included reviewing
the financial records that support the SPFS to determine if there were material misstatements and if the
SPFS was presented in the format required by SIGAR. In addition, the following areas were determined
to be direct and material and, as a result, were included within the audit program for detailed evaluation:

     Allowable Costs;
     Allowable Activities;
     Cash Management;
     Equipment;
     Period of Availability of Federal Funds;
     Procurement;
     Reporting; and
     Subrecipient Monitoring.

Methodology
To meet the aforementioned objectives, Crowe completed a series of tests and procedures to audit the
SPFS, tested compliance and considered the auditee’s internal controls over compliance and financial
reporting, and determined if adequate corrective action was taken in response to prior audit, assessment,
and findings and review comments, as applicable.




                                            www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
SIGAR                                            International Relief and Development, Inc.           4



For purposes of meeting Audit Objective 1 pertaining to the SPFS, transactions were selected from the
financial records underlying the SPFS and were tested to determine if the transactions were recorded in
accordance with the basis of accounting identified by the auditee; were incurred within the period covered
by the SPFS and in alignment with specified cutoff dates; were charged to the appropriate budgetary
accounts; and were adequately supported.

With regard to Audit Objective 2 regarding internal control, Crowe requested and the auditee provided
copies of policies and procedures and verbally communicated those procedures that do not exist in
written format to provide Crowe with an understanding of the system of internal control established by
IRD. The system of internal control is intended to provide reasonable assurance of achieving reliable
financial and performance reporting and compliance with applicable laws and regulations. Crowe
corroborated internal controls identified by the auditee and conducted testing of select key controls to
understand if they were implemented as designed.

Audit Objective 3 requires that tests be performed to obtain an understanding of the auditee’s compliance
with requirements applicable to the cooperative agreement. Crowe identified – through review and
evaluation of the cooperative agreement executed by and between IRD and USAID and the Code of
Federal Regulations (“CFR”) – the criteria against which to test the SPFS and supporting financial records
and documentation. Using sampling techniques, Crowe selected expenditures, drawdowns of Federal
funds made by IRD using the Payment Management System, co-pay deposits, procurements, property
and equipment dispositions, subrecipients, and project reports for audit. Supporting documentation was
provided by the auditee and subsequently evaluated to assess IRD’s compliance. Testing of indirect
costs was limited to determining whether indirect costs were calculated and charged to the U.S.
Government in accordance with the negotiated indirect cost rate agreements (“NICRA”) and associated
restrictions appearing in the NICRA and the cooperative agreement, and if adjustments were made, as
required and applicable.

Regarding Audit Objective 4, Crowe inquired of both IRD and USAID regarding prior audits and reviews
to obtain an understanding of the nature of audit reports and other assessments that were completed and
the required corrective action. The AVIPA program was included within IRD’s annual audits conducted in
accordance with OMB Circular A-133 for the years ended December 31, 2008, December 31, 2009,
December 31, 2010, December 31, 2011, and December 31, 2012. The program was also included
within the USAID Office of the Inspector General’s audit of USAID’s management of the AVIPA program.
A report dated April 20, 2010, was issued as a result of the audit.

Due to the location and nature of the project work and certain vendors and individuals who supported the
program still residing in Afghanistan, certain audit procedures were performed on-site in Afghanistan, as
deemed necessary.

Summary of Results
Upon completion of Crowe’s procedures, Crowe issued a disclaimer of opinion on the Special Purpose
Financial Statement. The basis for the disclaimer of opinion is addressed within Crowe’s Independent
Auditor’s Report on the Special Purpose Financial Statement.

Fourteen findings were reported because they met one or more of the following criteria: (1) significant
deficiencies in internal control, (2) material weaknesses in internal control, (3) noncompliance with rules,
laws, regulations, or the terms and conditions of the cooperative agreement; and/or (4) questioned costs
resulted from identified instances of noncompliance. Other matters that did not meet the criteria were
communicated verbally to IRD.

Crowe reported on both IRD’s internal controls over financial reporting and IRD’s compliance with the
applicable laws, rules, regulations, and the terms and conditions of the cooperative agreement. Six
material weaknesses in internal control, eight significant deficiencies in internal control, and twelve


                                          www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
SIGAR                                                 International Relief and Development, Inc.        5



instances of material noncompliance were reported. Where internal control and compliance findings
pertained to the same matter, they were consolidated within a single finding. A total of $1,893,484 in
unique costs was questioned as presented in TABLE A contained herein; due to certain transactions
being questioned in multiple findings, the unique costs field includes each transaction’s value once to
avoid double-counting costs.

Crowe also noted that, due to IRD’s having drawn down more funds than required to meet immediate
cash needs, the Government lost a calculated $2,912 in interest. In addition, IRD did not expend co-pay
cash received from beneficiaries, which meets the regulatory definition of program income, prior to
drawing down additional funds. In consideration of this matter, the amount of interest lost by the
Government due to its having advanced more funds than necessary to IRD increased to a calculated
$5,754. These matters are discussed in detail within findings 2014-03 and 2014-05. The interest amount
is recommended for payment to the Government.

Crowe also requested copies of prior audits, reviews, and evaluations pertinent to IRD’s financial
performance under the cooperative agreement. Per communications with IRD and USAID, there were six
audits conducted that included the AVIPA program within their respective audit scopes. The audits did
not contain any findings that are direct and material to the Special Purpose Financial Statement.

This summary is intended to present an overview of the results of procedures completed for the purposes
described herein and is not intended to be a representation of the audit’s results in their entirety.
                              TABLE A: Summary of Findings and Questioned Costs
  Finding                                                               Questioned         Cumulative Unique
                                         Matter
  Number                                                                  Costs            Questioned Costs
                     Allowable Costs: Inadequate Supporting
  2014-01                                                                     $92,677                 $92,677
                     Documentation
  2014-02            Reporting                                                      $0                $92,677
                     Cash Management: Written Procedures and
  2014-03                                                                           $0                $92,677
                     Excess Cash Balances
                     Revenue: Supporting Documentation and Cash
  2014-04                                                                           $0                $92,677
                     Controls
  2014-05            Program Income: Treatment, Balance, and Use              $11,657                $104,334
                     Accuracy and Completeness of Financial
  2014-06                                                                           $0               $104,334
                     Records and NICRA Application
                     Procurement: Supporting Documentation and
  2014-07                                                                     $63,030                $109,684
                     Procurement Population
  2014-08            Subrecipient Monitoring                                        $0               $109,684
  2014-09            Equipment Disposition                                   $196,486                $306,170
  2014-10            Suspension and Debarment Procedures                            $0               $306,170
  2014-11            Budget Transfers and Indirect Costs                     $929,103              $1,235,273
  2014-12            NICRA: True-Up Adjustments                                 $3,708             $1,238,981
  2014-13            Allowable Costs: Exchange Rate Application              $654,503              $1,893,484
  2014-14            Property Records and Inventory                                 $0             $1,893,484
Total Unique Questioned Costs                                                                      $1,893,484



                                               www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
SIGAR                                            International Relief and Development, Inc.          6



Summary of Management Comments

Management agreed or partially agreed with findings 2014-01, 2014-02, 2014-03, 2014-04, 2014-05,
2014-06, 2014-07, 2014-08, 2014-09, 2014-10, 2014-12, and 2014-14. Management did not agree in
whole with finding 2014-02 due to no annual report having been required for the year ended September
30, 2012, as the project was inactive from November 15, 2011, through October 23, 2012. Management
agreed with the remaining elements of finding 2014-02. Similarly, management disagreed with the
elements of findings 2014-03 and 2014-05 pertaining to calculated interest owed to the Government,
which recommend payment of interest lost by the Government due to IRD’s holding excess cash or
drawing down funds in excess of immediate cash needs. IRD disagreed with finding 2014-11 due to the
award’s not yet being closed and IRD’s intention to request approval to fund the indirect cost charges that
exceeded the approved indirect cost budget at the time IRD submits a final federal financial report.
Lastly, management disagreed with finding 2014-13 because IRD did not consider a foreign currency
transaction to have occurred.

In those instances where IRD provided additional information and documentation or in which the auditor
received additional sufficient appropriate audit evidence to modify or alter a finding between issuance of
the draft report to management for comment and issuance of this final report, adjustments to the findings
have been made.

References to Appendices

The auditor’s reports are supplemented by five appendices. Appendix A presents a schedule calculating
the $2,912 in interest income lost by the Government due to IRD’s retention of excess cash as referenced
in Finding 2014-03. Appendix B provides a schedule recalculating the amount payable to an IRD
contractor after correcting for exchange rate differences as referenced in Finding 2014-13. Appendix C
presents a schedule calculating the $5,754 in interest income lost by the Government due to IRD not
having expended program income prior to drawing down additional Federal funds and retention of excess
cash, as referenced in Finding 2014-05. Appendix D includes the Views of Responsible Officials, which
are management’s responses to the findings presented within the preliminary draft report. Appendix E
includes the auditor’s rebuttal issued in response to management’s comments on the findings.




                                          www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
                                                                         Crowe Horwath LLP
                                                                         Independent Member Crowe Horwath International




    INDEPENDENT AUDITOR’S REPORT ON THE SPECIAL PURPOSE FINANCIAL STATEMENT


To the Board of Directors and Management of International Relief and Development, Inc.
1621 North Kent Street, Suite 400
Arlington, Virginia 22209


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


Report on the Special Purpose Financial Statement

We were engaged to audit the Special Purpose Financial Statement (“the Statement”) of International
Relief and Development, Inc. (“IRD”), and related notes to the Statement, for the period September 1,
2008, through April 22, 2013, with respect to the Afghanistan Vouchers for Increased Production in
Agriculture (“AVIPA”) Program funded by cooperative agreement number 306-DFD-A-00-08-00304-00.


Management’s Responsibility for the Special Purpose Financial Statement

Management is responsible for the preparation and fair presentation of the Statement in accordance with
the requirements specified by the Office of the Special Inspector General for Afghanistan Reconstruction
(“SIGAR”) in Appendix V of Solicitation ID05130083 (“the Contract”). Management is also responsible for
the design, implementation, and maintenance of internal control relevant to the preparation and fair
presentation of a Statement that is free from material misstatement, whether due to fraud or error.


Auditor’s Responsibility

Our responsibility is to express an opinion on the Special Purpose Financial Statement based on
conducting the audit in accordance with auditing standards generally accepted in the United States of
America and Government Auditing Standards issued by the Comptroller General of the United States.
Because of the matters described in the Basis for Disclaimer of Opinion paragraph, however, we were not
able to obtain sufficient appropriate audit evidence to provide a basis for an audit opinion.


Basis for Disclaimer of Opinion

We were unable to obtain sufficient appropriate audit evidence to determine if revenues earned under the
award as reported on the Statement were materially accurate, and to fully quantify the impact of
misclassified expenditure transactions on multiple accounts included on the Statement. IRD did not
produce documentation from which the total amount of revenues earned and reported under the AVIPA
program could be determined. In addition, certain subcontract and subgrantee transactions were
recorded inconsistently in the financial records, and the extent of the inconsistencies was indeterminable.
Based on the items noted, we could not form an opinion on the Special Purpose Financial Statement.



                                               (Continued)

                                                                                                                          7.
Disclaimer of Opinion on the Special Purpose Financial Statement

Because of the significance of the matters described in the Basis for Disclaimer of Opinion paragraph, we
have not been able to obtain sufficient appropriate audit evidence to provide a basis for an audit opinion.
Accordingly, we do not express an opinion on the Special Purpose Financial Statement.


Basis of Presentation

We draw attention to Note 1 to the Statement, which describes the basis of presentation. The schedule
was prepared by IRD in accordance with the requirements specified by the Office of the Special Inspector
General for Afghanistan Reconstruction in Appendix V of the Contract and presents those expenditures
as permitted under the terms of cooperative agreement number 306-DFD-A-00-08-00304-00, which is a
basis of accounting other than accounting principles generally accepted in the United States of America,
to comply with the financial reporting provisions of the Contract referred to above.


Restriction on Use

This report is intended for the information of IRD, the United States Agency for International
Development, and the Office of the Special Inspector General for Afghanistan Reconstruction. Financial
information in this report may be privileged. The restrictions of 18 U.S.C. 1905 should be considered
before any information is released to the public.


Report on Other Legal and Regulatory Requirements

In accordance with Government Auditing Standards, we have also issued reports dated July 28, 2014, on
our consideration of IRD’s internal controls over financial reporting and on our tests of its compliance with
certain provisions of laws, regulations, contracts, and other matters. The purpose of those reports is to
describe the scope of our testing of internal control over financial reporting and compliance and the
results of that testing, and not to provide an opinion on internal control over financial reporting or on
compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards in considering IRD’s internal control over financial reporting and compliance.




                                                          Crowe Horwath LLP


July 28, 2014
Washington, D.C.




                                                                                                           8.
                                                         International Relief and Development, Inc.
                                                            Special Purpose Financial Statement
                                                                   DFD-A-00-08-00304-00
                                                  For the Period September 1, 2008, through April 22, 2013

                                                                                                                          Questioned Costs

                                                    Budget                    Actual                  Ineligible        Unsupported            Notes

                                                 Grand Total

Revenues
  USAID Letter of Credit                    $         469,701,416 $             469,628,890
  Co-Payments from Beneficiaries                       33,382,753                33,382,753
Total Revenue                               $         503,084,169 $             503,011,643                                                      4


Costs Incurred                                                                                                                                   6
  Personnel                                 $          31,251,984 $               30,512,209
  Fringe Benefits and Allowances            $          20,758,292                 24,470,506                 $3,708                              F
  Travel, Transportation, and Per
                                            $          10,715,625                  3,723,299
      Diem
  Equipment                                 $           4,390,238                 4,665,047                                  $254,166          A, C, D
  Other Direct Costs                        $         139,251,624                26,437,648                                    $5,350           C, F
  Contractual                               $         259,819,486               375,365,434               $654,503            $34,997          A, B, G
  Indirect Costs                                       36,896,740                37,825,843               $929,103                                E
Total Costs Incurred                        $         503,083,989 $             502,999,986

Balance                                                               $                11,657               $11,657                             7, B




The accompanying notes to the Special Purpose Financial Statement are an integral part of this Statement and were prepared by the recipient.




                                                                                                                                                         9.
                             International Relief and Development, Inc.
                         Notes to the Special Purpose Financial Statement
                      For the Period September 1, 2008, through April 22, 2013


Note 1. Basis of Presentation

The accompanying Special Purpose Financial Statement (the "Statement") includes costs incurred under
cooperative agreement number 306-DFD-A-00-08-00304-00 for the Afghanistan Vouchers for Increased
Production in Agriculture (“AVIPA”) Program for the period September 1, 2008, through April 22, 2013.
Because the Statement presents only a selected portion of the operations of International Relief and
Development, Inc. (“IRD”), it is not intended to and does not present the financial position, changes in net
assets, or cash flows of IRD. The information in this Statement is presented in accordance with the
requirements specified by the Office of the Special Inspector General for Afghanistan Reconstruction
("SIGAR") and is specific to the aforementioned Federal Cooperative Agreement. Therefore, some
amounts presented in this Statement may differ from amounts presented in, or used in the preparation of,
the basic financial statements.


Note 2. Basis of Accounting

Expenditures reported on the Statement are reported in accordance with accounting principles generally
accepted in the United States of America (“GAAP”) and, therefore, are reported on the accrual basis of
accounting. Such expenditures are recognized following the cost principles contained in OMB Circular A-
122, Cost Principles for Non-Profit Organizations, wherein certain types of expenditures are not allowable
or are limited as to reimbursement.


Note 3. Foreign Currency Conversion Method

Costs incurred in the local Afghanistan currency (i.e., Afghanis) were converted to U.S. Dollars using the
historical weighted average exchange rate obtained when converting U.S. Dollars to Afghanis.


Note 4. Revenues

Revenues on the Statement represent the amount of funds which IRD is entitled to receive from USAID
for allowable, eligible costs incurred under the cooperative agreement during the period of performance
and co-pay cost share funds received from program beneficiaries. Co-pay cost share funds received
totaled $33,382,752.80. The funds were paid by the recipients of AVIPA funded agriculture inputs as
their share of the costs. The cost share funds received were used for the purposes of the AVIPA program
as approved by USAID.


Note 5. Revenue Recognition

Funds drawn under the AVIPA letter of credit or funds received from AVIPA beneficiaries’ co-pay cost
share are treated as deferred revenue upon receipt. Deferred revenue is recognized as revenue earned
when costs are incurred, including applicable indirect costs.


Note 6. Costs Incurred by Budget Category

The budgeted costs contained in the Special Purpose Financial Statement reflect the budgetary values
contained in Modification 24 to the Cooperative Agreement dated October 23, 2012.




                                               (Continued)

                                                                                                        10.
Note 7. Balance

The balance presented on the Statement represents the difference between revenues earned and costs
incurred such that an amount greater than $0 would reflect that revenues have been earned that exceed
the costs incurred or charged to the award and an amount less than $0 would indicate that costs have
been incurred, but are pending additional evaluation before a final determination of allowability and
amount of revenue earned may be made. The Statement’s $11,657 balance indicates that there is an
unspent balance of co-pay cost share funds received from program beneficiaries.


Note 8. Currency

All amounts presented are shown in United States dollars.


Note 9. Program Status

The Cooperative Agreement expired for the second time on April 22, 2013. Submission of the final
expenditure report is pending establishment of the final indirect cost rate and fringe benefit rate for IRD’s
Fiscal Year 2013.


Note 10. Pre-Award Period

The cooperative agreement identified an effective date of September 25, 2008. The award specified an
allowable pre-award period beginning September 1, 2008. Therefore, the period covered by the
Statement is September 1, 2008, through April 22, 2013, the end of the period of performance per
Modification #24 to the cooperative agreement.


Note 11. Subsequent Events

Management has performed an analysis of the activities and transactions subsequent to the April 22,
2013, period of performance. Management has performed their analysis through July 28, 2014.




                                                                                                         11.
      Notes to the Questioned Costs Presented on the Special Purpose Financial Statement1


Note A. Allowable Costs: Inadequate Supporting Documentation

Finding 2014-01 identified $92,677 in questioned costs that resulted from a lack of supporting
documentation for one transaction, unsigned timesheets supporting two security vendor invoices, and one
transposition error on an invoice resulting in an overpayment.

Note B. Program Income: Treatment, Balance, and Use

Finding 2014-05 identified $11,657 in questioned costs that resulted from IRD’s not reinvesting $11,657 in
program income earned back into the program thus resulting in greater Federal funds having been drawn
down and expended than necessary.

Note C. Procurement: Supporting Documentation and Procurement Population

Finding 2014-07 identified $63,030 in questioned costs that resulted from IRD’s not providing adequate
documentation from the procurement files to support the reasonableness of certain costs incurred.
$57,680 of the $63,030 is also questioned in Finding 2014-01.

Note D. Equipment Disposition

Finding 2014-09 identified $196,486 in questioned costs that resulted from IRD’s not providing adequate
documentation from which a determination regarding IRD’s compliance with USAID’s nonexpendable
property disposition requirements could be made.

Note E. Budget Transfers and Indirect Costs

IRD exceeded the indirect cost cap presented in the program budget per Modification #24 to the
cooperative agreement by $929,103 while under-spending certain direct cost categories. $929,103 is
questioned within finding 2014-11.

Note F. NICRA Application and Provisional-Final Adjustments

As noted in Finding 2014-12, IRD did not conduct a true-up of its fringe benefit costs for fiscal year 2012
following finalization of the fringe benefit rates appearing in the NICRA in October 2013. $3,708 is
questioned with regard to the true-up amounts.

Note G. Allowable Costs: Exchange Rate Conversion

Finding 2014-13 identified $654,503 in questioned costs as a result of IRD’s using an exchange rate that
exceeded the current rate for the foreign currency translation.




1
  Notes to the Questioned Costs Presented on the Special Purpose Financial Statement were prepared by the auditor
for informational purposes only and as such are not part of the audited Statement.




                                                                                                             12.
                                                                          Crowe Horwath LLP
                                                                          Independent Member Crowe Horwath International




                   INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL


To the Board of Directors and Management of International Relief and Development, Inc.
1621 North Kent Street, Suite 400
Arlington, Virginia 22209


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We were engaged to audit, in accordance with the auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States, the Special Purpose Financial
Statement (“the Statement”) of International Relief and Development, Inc. (“IRD”), and related notes to
the Statement, for the period September 1, 2008, through April 22, 2013, with respect to the Afghanistan
Vouchers for Increased Production in Agriculture (“AVIPA”) Program funded by cooperative agreement
number DFD-A-00-08-00304-00. We have issued our report thereon dated July 28, 2014, within which
we disclaimed an opinion.


Internal Control over Financial Reporting

IRD’s management is responsible for establishing and maintaining effective internal control. In fulfilling
this responsibility, estimates and judgments by management are required to assess the expected benefits
and related costs of internal control policies and procedures. The objectives of internal control are to
provide management with reasonable, but not absolute, assurance that the assets are safeguarded
against loss from unauthorized use or disposition; transactions are executed in accordance with
management’s authorization and in accordance with the terms of the cooperative agreement; and
transactions are recorded properly to permit the preparation of the Statement in conformity with the basis
of presentation described in Note 1 to the Statement. Because of inherent limitations in internal control,
errors or fraud may nevertheless occur and not be detected. Also, projection of any evaluation of the
structure to future periods is subject to the risk that procedures may become inadequate because of
changes in conditions or that the effectiveness of the design and operation of policies and procedures
may deteriorate.

In planning and performing our audit of the Statement for the period September 1, 2008, through April 22,
2013, we considered IRD’s internal controls to determine audit procedures that are appropriate in the
circumstances for the purpose of expressing our opinion on the Statement, but not for the purpose of
expressing an opinion on the effectiveness of IRD’s internal control. Accordingly, we do not express an
opinion on the effectiveness of IRD’s internal control.

Our consideration of internal control was for the limited purpose described in the preceding paragraph
and was not designed to identify all deficiencies in internal control that might be material weaknesses or
significant deficiencies and, therefore, material weaknesses or significant deficiencies may exist that were
not identified. However, as described in the accompanying Schedule of Findings and Questioned Costs,
we identified certain deficiencies in internal control that we consider to be material weaknesses and
significant deficiencies.



                                               (Continued)

                                                                                                                       13.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a
combination of deficiencies, in internal control such that there is a reasonable possibility that a material
misstatement of the Statement will not be prevented, or detected and corrected, on a timely basis. We
consider the deficiencies noted in Findings 2014-02, 2014-04, 2014-05, 2014-06, 2014-11, and 2014-14
in the accompanying Schedule of Findings and Questioned Costs to be material weaknesses.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. We consider the deficiencies noted in Findings 2014-01, 2014-03, 2014-07, 2014-08, 2014-
09, 2014-10, 2014-12, and 2014-13 in the accompanying Schedule of Findings and Questioned Costs to
be significant deficiencies.

We noted certain matters that we reported to IRD’s management in a separate letter dated July 28, 2014.


International Relief and Development, Inc.’s Response to Findings

IRD’s response was not subject to the auditing procedures applied in the audit of the special purpose
financial statement and, accordingly, we express no opinion on it.


Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the results
of that testing, and not to provide an opinion on the effectiveness of the entity’s internal control. This
report is an integral part of an audit performed in accordance with Government Auditing Standards in
considering the entity’s internal control. Accordingly, this communication is not suitable for any other
purpose.


Restriction on Use

This report is intended for the information of International Relief and Development, Inc., the United States
Agency for International Development, and the Office of the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18 U.S.C. 1905
should be considered before any information is released to the public.




                                                          Crowe Horwath LLP

July 28, 2014
Washington, D.C.




                                                                                                         14.
                                                                        Crowe Horwath LLP
                                                                        Independent Member Crowe Horwath International




                       INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE


To the Board of Directors and Management of International Relief and Development, Inc.
1621 North Kent Street, Suite 400
Arlington, Virginia 22209


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We were engaged to audit, in accordance with the auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States, the Special Purpose Financial
Statement (“the Statement”) of International Relief and Development, Inc. (“IRD”), and related notes to
the Statement, for the period September 1, 2008, through April 22, 2013, with respect to the Afghanistan
Vouchers for Increased Production in Agriculture (“AVIPA”) Program funded by cooperative agreement
number DFD-A-00-08-00304-00. We have issued our report thereon dated July 28, 2014, within which
we disclaimed an opinion.


Management’s Responsibility for Compliance

Compliance with Federal rules, laws, regulations, and the terms and conditions applicable to the
cooperative agreement is the responsibility of the management of International Relief and Development,
Inc.


Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Statement is free of material misstatement,
we performed tests of compliance with certain provisions of laws, regulations, and contracts,
noncompliance with which could have a direct and material effect on the determination of financial
statement amounts. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and, accordingly, we do not express such an opinion. The results of our tests
disclosed instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards and which are described in Findings 2014-01, 2014-02, 2014-03, 2014-
04, 2014-05, 2014-06, 2014-07, 2014-09, 2014-11, 2014-12, 2014-13, and 2014-14 in the accompanying
Schedule of Findings and Questioned Costs.

We noted certain matters that we reported to IRD’s management in a separate letter dated July 28, 2014.


International Relief and Development, Inc.’s Response to Findings

IRD’s response was not subjected to the auditing procedures applied in the audit of the special purpose
financial statement and, accordingly, we express no opinion on it.



                                              (Continued)

                                                                                                                     15.
Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the results of
that testing, and not to provide an opinion on compliance. This report is an integral part of an audit
performed in accordance with Government Auditing Standards in considering the entity’s compliance.
Accordingly, this communication is not suitable for any other purpose.


Restriction on Use

This report is intended for the information of International Relief and Development, Inc., the United States
Agency for International Development, and the Office of the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18 U.S.C. 1905
should be considered before any information is released to the public.




                                                          Crowe Horwath LLP


July 28, 2014
Washington, D.C.




                                                                                                        16.
SECTION I: SCHEDULE OF FINDINGS AND QUESTIONED COSTS

Finding 2014-01: Allowable Costs: Inadequate Supporting Documentation

Significant Deficiency and Non-Compliance

Criteria: Per OMB Circular A-122, costs must meet the following general criteria to be allowable:

    a. Be reasonable for the performance of the award and be allocable thereto under [the principles
       contained in OMB Circular A-122];
    b. Conform to any limitations or exclusions set forth in [OMB Circular A-122] or in the award as to
       types of amount of cost items;
    c. Be consistent with policies and procedures that apply uniformly to both federally-financed and
       other activities of the organization;
    d. Be accorded consistent treatment;
    e. Be determined in accordance with generally accepted accounting principles (GAAP);
    f. Not be included as a cost or used to meet cost sharing or matching requirements of any other
       federally-financed program in either the current or a prior period; and
    g. Be adequately documented.

Section 10.2 of Subcontract No. AVIPA-C-02-2008 executed by and between IRD and Global Strategies
Group states that “The Subcontractor should retain on file receipts for expenditures and copies of
individuals’ timesheets for claimed labor costs and work rendered and accepted during the invoice billing
period…Timesheets are to be submitted with each invoice in support of associated costs.” The
subcontract also flows down the provisions of FAR 52.232-7 which states, “The Contractor shall
substantiate vouchers by evidence of actual payment and by individual daily job timecards, or other
substantiation approved by the Contracting Officer.”

Section 1.4 of the cooperative agreement asserts that prior approval of certain purchases is required
consistent with the requirements of OMB Circular A-122. Per OMB Circular A-122, capital expenditures
for general purpose equipment, buildings, and land are unallowable as direct charges, except where
approved in advance by the awarding agency. The Circular defines “equipment” as “an article of
nonexpendable, tangible personal property having a useful life of more than one year and an acquisition
cost which equals or exceeds the lesser of the capitalization level established by the non-profit
organization for financial statement purposes, or $5,000.”

Condition: During review of documentation supporting a sample of 146 transactions, we identified one
expenditure that was overpaid by $900. Invoice number 25 for Helmand Wal Barak Ltd included a
numerical transposition error; the sum of the invoice components was $5,640 whereas the total line item
and the amount paid was listed as $6,540. The invoice was reviewed by IRD as per the organization’s
procedures; however, the error was not detected.

In addition, IRD utilized Global Strategies for security services. During review of two contractor invoices,
three timesheets provided in support of the vendor’s labor charges were not signed by the contractor and,
therefore, were considered to be inadequate to support work having been performed on the program. In
addition, we noted following matter in the supporting documentation for Kandahar for the month ended
September 30, 2010 (Invoice SI100443):

    1. The timecard for Employee A with Employee Number “Nil” in the position of “Interpreter” indicated
       that he was present on days 1 – 13 of the month. The amount charged to AVIPA was $541.19
       (13 days at $41.63 per day).
    2. The timecard for Employee B with Employee Number “Nil” in the position of “Static Guard”
       indicated that he was present on days 1 – 14 of the month. The amount charged to AVIPA was
       $196.90 (10 days at $19.69 per day).
    3. Employee A’s name and Employee Number is the same as Employee B’s name and Employee
       Number, and the days worked overlap by all except one day.




                                               (Continued)

                                                                                                          17.
Furthermore, the auditee indicated that it is common practice for supervisors to approve employees’ time
worked during periods when the supervisor is on leave or otherwise not working. Therefore, the
supervisor approvals are not considered to be sufficient evidence in the absence of employee
certifications as well. In consideration of the aforementioned matters, we could not conclude that the time
worked by Employee A was not double-counted or that the days charged were worked. The
corresponding costs are in question.

Lastly, IRD was unable to locate the supporting documentation for one equipment transaction.

The following table summarizes the total costs in question due to inadequate supporting documentation:


       Transaction Detail Narrative              Exception Noted                Amount in Question

    HLD3318 Helmand Wal Barak Ltd.      Invoice #25’s total amount was                            $900
                                        entered as $6,540 rather than the
                                        accurate sum of $5,640 resulting in
                                        an overpayment.
    Security labor AVIPA Sep            The interpreter did not sign the                          $738
                                        timesheet. See invoice SI100443.
    Security t/m AVIPA Mar              One timesheet for the project                          $33,359
                                        manager was unsigned by the
                                        employee. One timesheet for the
                                        project manager was unsigned by
                                        the supervisor. One timesheet for
                                        the Chief of Staff was unsigned by
                                        the supervisor.       See invoice
                                        SI110171.
    UV0810/002 V000 – Faisal Zabih      The purchase request, vendor                           $57,680
                                        invoice, and payment support were
                                        not provided.
    TOTAL                                                                                      $92,677




Questioned costs: $92,677

Effect: The Government was overcharged for one purchase, and one equipment purchase may be
considered unreasonable or unnecessary upon review by the funding agency. Regarding security
charges and lack of support for one equipment item, the Government may have funded work that was not
performed and goods that were not received or used for the purposes of the AVIPA program.

Cause: The internal controls that IRD implemented to ensure that vendor errors in billing and timesheet
approvals are detected and corrected were ineffective. It is unclear why the supporting documentation for
the equipment purchase and USAID’s prior written approval could not be located within the archived
records.

Recommendation: We recommend that IRD take the following actions: 1) remit $900 to the Government
due to the numerical transposition error; 2) locate alternative evidence to support that the Global
Strategies interpreter and project manager worked the time that was invoiced to IRD or otherwise refund
the Government the amount of $34,097; 3) locate supporting documentation for the Faisal Zabih
purchase and evidence of USAID’s prior written approval or otherwise return the corresponding $57,680;
and 4) Request and obtain additional supporting documentation from Global Strategies to substantiate
that work was performed by the employees identified on invoice SI100443.




                                               (Continued)

                                                                                                         18.
Finding 2014-02: Reporting: Incomplete Financial Reports and Evidence of Review and Approval

Material Weakness and Non-Compliance

Criteria: IRD established a procedure requiring that the Chief of Party to review and approve
programmatic reports.

Per Title 22, Part 226.21(b) of the Code of Federal Regulations requires recipients’ financial management
systems to provide for accurate, current, and complete disclosure of the financial results of each
federally-sponsored project or program in accordance with the reporting requirements set forth in 22 CFR
Part 226.52, Financial Reporting.

Condition: IRD first journalized co-pay amounts as of November 31, 2009. However, amounts for co-pay
were not reported on the AVIPA federal financial reports until December 31, 2010. At the prior quarter
end, September 30, 2010, IRD financial records indicated a total of $7,678,261 of co-pay had been
received. Therefore, a minimum of four incomplete quarterly financial reports were submitted before a
quarterly financial report included any program income. Due to program income having been recorded in
the entity’s financial records at the time of deposits rather than at the time the revenue was earned, it
could not be determined if there were more than four financial reports that were misstated.

The preliminary final financial report dated July 18, 2013, reported $33,382,573 in program income, which
agrees to IRD’s deposit records. Therefore, the omission was subsequently corrected.

In addition, IRD did not produce documentation demonstrating that two of the seven sampled reports
were reviewed by the Chief of Party (programmatic reports). The following reports were included within
the reporting sample:


                 Report Title                    Reporting Period                  Report Type

     Quarterly Performance Report            January 1 – March 31, 2010           Programmatic
     Final Project Report                        Full Project Period              Programmatic



Questioned costs: None

Effect: USAID may not have been provided with the information necessary for the funding agency to
monitor the program’s financial and programmatic performance. In the absence of report reviews, errors
and omissions may be undetected and uncorrected.

Cause: Per inquiry with IRD, the auditee was uncertain why the program income was not reported prior to
the report for the quarter ended December 31, 2010. IRD did not retain documented evidence of report
reviews.

Recommendation: We recommend that IRD 1) develop a tool to ensure that each required element of
financial reports is addressed prior to submission of reports to USAID; and 2) modify reporting procedures
to require the documented review and approval of reports and retention of approval documentation.




                                               (Continued)

                                                                                                      19.
Finding 2014-03: Cash Management: Written Procedures and Excess Cash Balances

Significant Deficiency and Non-Compliance

Criteria: Per Section 1.3 of the cooperative agreement, payment shall be made to IRD under the Letter
of Credit advance payment method and in accordance with the provisions of 22 CFR Part 226.22 and 22
CFR Part 226.52.

Pursuant to 22 CFR Part 226.21(b)(5), recipients’ financial management systems shall provide for “written
procedures to minimize the time elapsing between the transfer of funds to the recipient from the U.S.
Treasury and the issuance or redemption of checks, warrants or payments by other means for program
purposes by the recipient."

Regarding cash advances, 22 CFR Part 226.22(k) states, "Recipients shall maintain advances of Federal
funds in interest bearing accounts..."

Section 2.5.1(B)(1) of the Finance Manual specifies that the Senior Accountant for Grants and Contracts
Accounting receives fund requests from the field.

22 CFR Part 226.53(b), Retention and access requirements for records, states, “Financial records,
supporting documents, statistical records, and all other records pertinent to an award shall be retained for
a period of three years from the date of submission of the final expenditure report or, for awards that are
renewed quarterly or annually, from the date of the submission of the quarterly or annual financial report,
as authorized by USAID."

Condition: IRD maintained both a Finance Manual that included cash management procedures as well
as a second, stand-alone Letter of Credit Advance Policy. Per review of the written procedures and
discussion with IRD, funds were not held in interest-bearing accounts at any point during the period of
performance. Further, prior to the Letter of Credit Advance Policy's effective date (June 2010), a
procedure was not in place that addressed the requirement for prompt disbursement of Federal funds.
Thus, the written procedures were considered to be inadequate for the initial two years of the program.

Twenty unique drawdowns were selected for review and control testing. Of the twenty drawdowns tested,
documentation of the field office’s funding request and the subsequent approval by headquarters was
unavailable for sixteen selections. The documentation, which consisted of working papers that supported
the final drawdown amounts, was destroyed rather than having been archived and stored with other
program records. In the absence of the documentation, one cannot determine if the procedures designed
by IRD were implemented appropriately.

During an analysis of the full population of drawdowns, we noted that IRD held excess cash in seven
months; the excess cash balances ranged from $665,253 to $8,355,913.

Using the U.S. Treasury Department's daily interest rates for the periods in question, we calculated
interest lost by the Government as a result of the excess cash to be $2,912, net of the $250 that IRD is
eligible to retain for administrative costs. A schedule showing the calculation of the lost interest amount is
presented in Appendix A to this report.

Questioned costs: None. However, $2,912 in imputed interest was calculated as having been lost by
the Government.

Effect: The Government lost a calculated $2,912 in interest due to funds exceeding immediate cash
needs having been retained by IRD.




                                                (Continued)

                                                                                                          20.
Cause: IRD considered it to be impractical to expend the full amount of funds within 30 days of receipt
considering the local environment in Afghanistan. In the instances where disbursement of the funds
within 30 days was not practical, however, IRD did not adjust its subsequent draw requests to
accommodate for the remaining funds thus resulting in excess cash.

IRD considered the advance payment requirements to apply to the entity overall and cash balances by
program/Payment Management System sub-account not to factor into the spending decisions.

Per IRD, the organization did not reach a conclusion regarding how to treat and report the co-pays (i.e.,
as cost share or program income) until later in the program, so the accounting changed over time and
resulted in inconsistent reporting. IRD was uncertain why it continuously reported co-pays as program
income. With regard to destroyed records, IRD indicated that the records were inadvertently destroyed at
management’s direction due to IRD’s understanding that working papers did not need to be retained.

Recommendation: We recommend that IRD remit the $2,912 in lost interest to the Government and
begin depositing Federal funds received in advance into interest-bearing accounts.

We recommend that IRD provide written instruction to individuals who have the authority to destroy
records, including supporting documents, reminding them of the records retention requirements. We
further recommend that IRD incorporate a process that requires an additional level of review and
concurrence prior to any records being destroyed to mitigate the risk of incorrect or inappropriate
documents being discarded.




                                              (Continued)

                                                                                                     21.
Finding 2014-04: Revenue: Supporting Documentation and Cash Controls

Material Weakness and Non-Compliance

Criteria: Title 22, Part 226.21, Standards for financial management systems, requires recipients’ financial
management systems to provide for the following items (not exhaustive):
     Accurate, current and complete disclosure of the financial results of each federally-sponsored
        project or program;
     Records that identify adequately the source and application of funds for federally-sponsored
        activities.    These records shall contain information pertaining to all Federal awards,
        authorizations, obligations, unobligated balances, assets, outlays, income and interest;
     Effective control over and accountability for all funds, property and other assets. Recipients shall
        adequately safeguard all such assets and assure they are used solely for authorized purposes;
        and
     Accounting records, including cost accounting records that are supported by source
        documentation.

Per Volume 3, Chapter 2 of the IRD Finance Manual, “…IRD, as an organization, accounts for its
transactions annually on the accrual basis, its Field Offices are to record their receipts and expenditures
on the cash basis.”

Condition: IRD reported $503,011,643 in revenues, inclusive of Federal drawdowns and co-pay receipts.
During our review of documentation supporting revenue, the following matters were identified:

1. Revenue Recognition: IRD recorded co-pay receipts as deferred revenue at the time of deposit
versus when funds were received or earned as required by the cash and accrual basis of accounting,
respectively. Due to deposits occurring sporadically rather than on a daily basis or at a fixed interval, the
timing of the entries is in question. Due to documentation being unavailable to show the specific dates
that the co-pay funds included in each deposit were received, the extent of the timing differences could
not be identified. We noted that IRD indicated, within modification #13 dated February 2011, that $17
million in co-pay funds had been received. The schedule provided by IRD showing all co-pay deposit
amounts and accounting entry dates - inclusive of offsets - reflected $10.431 million as being deposited
prior to February 2011.

The cause of the entry date differences could not be determined; however, due to the total amount of co-
pays having been recorded by IRD by the end of the audit period and the SPFS reflecting the full period,
the timing differences do not have an identified impact on the Statement values.

2. Completeness of Reported Revenue: IRD reported $33,382,573 in co-pay funds received.
Documentation supporting the deposit amounts and amounts recognized as revenue was available.
However, IRD was unable to provide a reconciliation between a) vouchers provided to farmers, b)
vouchers redeemed and ultimately, and c) co-pay funds received to identify whether all co-pay monies
collected by IRD and/or implementing partners were received and deposited. The co-pay amounts also
varied over time and by location/good, so a reliable estimate of expected co-pay receipts for all vouchers
could not be generated.

In addition, per discussion with IRD, the auditee deposited co-pay monies into the same bank accounts
as Federal funds, which prevented the identification and determination of whether all funds deposited
were ultimately recorded in the accounting records.

Questioned costs: None

Effect: The accuracy and completeness of the co-pay amounts reported by IRD could not be validated.




                                                (Continued)

                                                                                                         22.
Cause: The aforementioned issues resulted from the following matters:

    1. IRD did not have a requirement for daily deposits or reconciliations of the periodic deposits to
       underlying detail of cash receipts incorporated within the IRD Operations Manual – Field Offices
       Finance and Accounting.

    2. IRD considered frequent trips to the bank to be a security/safety risk.

    3. The quantity of vouchers was too large to feasibly track each voucher issued, and IRD indicated
       that the vouchers did not have stand-alone cash value. Therefore, the vouchers were not tracked
       at the level of detail needed to estimate total revenue.

Recommendation: We recommend that IRD develop and implement procedures that require 1) a
reconciliation to be conducted of program bank deposits to amounts logged in cash/safe records daily
and that requires daily or weekly deposits to prevent delays in deposits of cash.

We further recommend that IRD conduct an analysis to determine the quantity of vouchers issued and
quantity received and to calculate an estimate of anticipated cash receipts such that IRD may support the
completeness of the reported co-pay receipts and revenues earned.




                                               (Continued)

                                                                                                     23.
Finding 2014-05: Program Income: Treatment, Balance, and Use

Material Weakness and Non-Compliance

Criteria: Per Section 1.8 of the cooperative agreement and 22 CFR Part 226.24(b)(1), program income is
additive to the USAID and other contributions, and shall be used to further eligible project or program
objectives.

Title 22, Part 226.22(b)(2) requires that cash advances be limited to the minimum amounts needed and
be timed to be in accordance with the actual, immediate cash needs of the recipient organization.

Per 22 CFR Part 226.2, program income is defined as follows:

        Program income means gross income earned by the recipient that is directly generated by a
        supported activity or earned as a result of the award (see exclusions in §§ 226.24 (e) and (h)).
        Program income includes, but is not limited to, income from fees for services performed, the use
        or rental of real or personal property acquired under federally-funded projects, the sale of
        commodities or items fabricated under an award, license fees and royalties on patents and
        copyrights, and interest on loans made with award funds. Interest earned on advances of Federal
        funds is not program income. Except as otherwise provided in USAID regulations or the terms
        and conditions of the award, program income does not include the receipt of principal on loans,
        rebates, credits, discounts, etc., or interest earned on any of them.

Section 2.5 of IRD's Finance Manual indicates that cash receipts will be posted to the Cash Receipts
Journal on a daily basis.

Condition: IRD received co-payments from beneficiaries of the AVIPA program in exchange for goods
and services provided by IRD and/or its implementing partners. The co-payments were earned as a
direct result of the Federally-funded program and reflected fees for goods and services. Therefore, the
co-pay receipts meet the definition of “program income” as defined in Federal regulation.

IRD reported the co-pay receipts on federal financial reports as program income and recorded certain co-
payment and voucher receipts within the program income account on the ledger; however, IRD
represented that it concluded that the funds should have been classified as cost share. IRD submitted a
letter to the agreement officer dated November 3, 2009, requesting USAID’s concurrence that the co-
pays are not subject to Subpart E of 22 CFR Part 226, Additional Provisions for Awards to Commercial
Organizations. Due to IRD’s being a non-profit organization rather than a commercial entity and
considering IRD’s having handled receipt and management of co-pay monies, per discussion of the
program structure and overview with IRD’s staff, the conclusion that co-pays should be treated as cost
share only was not considered to be valid for purposes of Federal compliance. Further, per IRD, USAID
did not and has not responded to the request for concurrence.

During our audit of IRD’s procedures, controls, and compliance, we noted the following:

    1. Excess Federal funds drawn down: IRD did not reduce the amounts drawn down for the AVIPA
        award in response to co-pays received/program income earned. Co-pay/program income funds
        were required to be used to further eligible program objectives and, therefore, were to be treated
        in a manner similar to Federal funds. Thus, IRD was required to adjust its draw down amounts to
        reflect cash available from program income earned. Due to IRD’s not having managed draw
        downs in this manner, excess cash was held ranging from $102,484 to $13,094,856. The excess
        cash balances resulted in a calculated $5,754 in interest lost by the Government due to funds
        having been advanced to IRD prior to the auditee’s program needs. See Appendix C to this
        report for the calculation of interest lost by the Government.

    2. Unexpended Program Income: IRD's financial records and the Special Purpose Financial
        Statement indicate that the company received $33,382,753 in co-payments and funded
        $33,371,096 in program transactions with the funds. $11,657, therefore, was not reinvested into
        the program.


                                              (Continued)

                                                                                                      24.
Questioned costs: $11,657, the amount of Federal funds received that would not have been required
had the co-pay funds been reinvested into the program. An additional $5,754 in interest was lost by the
Government.

Effect: The total amount of co-pay receipts could not be validated. Further, IRD obtained and retained
greater Federal funds than that to which the organization was entitled to receive at certain points in time.
The result is that the Government lost $5,753 in interest that could have been earned on the advanced
funds.

Cause: Although IRD reported the funds as program income to USAID, IRD asserts that the funds should
be considered cost share monies rather than program income. In the absence of a response from USAID
to IRD’s letter requesting agreement with the cost share interpretation, IRD assumed that USAID agreed
with its position.

IRD did not implement procedures to track the co-pay receipts in relation to vouchers that were
distributed and/or redeemed by specific farmers and organizations throughout the course of the program.

IRD interprets the cash management regulations to apply to the entity overall rather than to funds
advanced to an entity for the program referenced in the Payment Management System.

Recommendation: We recommend that IRD take the following actions:

    1. Remit $5,754 in interest to the Government or document the reasoning for why the funds should
       not be considered program income under the regulations applicable to non-profit organizations
       and obtain a waiver of the interest owed to the Government;

    2. IRD should return $11,657 to the Government representing the Federal funds that were not
       required due to certain co-pay funds not having been expended on program activities; and

    3. Conduct an analysis to support the completeness of the co-pay receipts amount reported, and
       submit the analysis to USAID. If the analysis indicates that additional revenue was earned, IRD
       should 1) calculate the amount of Federal funds that were overdrawn due to program income
       funds not having been expended prior to additional Federal funds being drawndown; 2) calculate
       the interest lost by the Government as a result of the Federal funds having been overdrawn; and
       3) remit the interest due to the Government.




                                               (Continued)

                                                                                                        25.
Finding 2014-06: Accuracy and Completeness of Financial Records

Material Weakness and Non-Compliance

Criteria: Section 6.4.6 of IRD’s Financial Manual states that the Director of Field Accounting “is
responsible for handling cost accounting input from field offices and entering this information on the Cost
Point Deltek system (when the full system is in place, the field offices for large project will enter the data
directly into Cost Point). The Director must ensure that:

    A.   Cost data is consistent with the IRD Accounting Structure.
    B.   Data for direct and indirect costs is reported separately.
    C.   Costs are properly assigned by project, and by general ledger account.
    D.   Non-allowable costs are recorded to non-allowable accounts."

Per Section 2.5.2(D) of the IRD Operations Manual – Field Offices Finance and Accounting, the Finance
Manager is responsible for ensuring that all financial transactions are classified, recorded and
summarized properly.

22 CFR Part 226.2 defines a “subaward” as “an award of financial assistance in the form of money, or
property in lieu of money, made under an award by a recipient to an eligible subrecipient or by a
subrecipient to a lower tier subrecipient. The term includes financial assistance when provided by any
legal agreement, even if the agreement is called a contract, but does not include procurement of goods
and services nor does it include any form of assistance which is excluded from the definition of ‘award’ in
this section.”

The Section continues to define “subrecipient” as “any person or government (including cooperating
country government) department, agency, establishment, or for profit or non-profit organization that
receives a USAID subaward, as defined in 22 CFR 226.2.”

Condition: During our review of the transaction detail for Federal and Co-Pay charges and comparisons to
the subrecipient population and audit reports provided by IRD, we identified certain transactions that were
misclassified and/or treated inconsistently within the financial records. Matters noted included:

    1. In-kind equipment items transferred to other parties were periodically recorded within the
       subgrant accounts;

    2. The population of subrecipients provided by IRD included six organizations with a combined total
       subgrant value of $5,718,138. However, $23,275,070 was recorded to the domestic and foreign
       subgrant accounts producing an unreconciled variance of $17,556,932;

    3. IRD’s vendor, Durukhshan Agricultural & Social Association Ltd (“DASA”), had entries recorded to
       both the domestic and foreign subgrant accounts as well as to the domestic subcontract account
       although the entity did not receive a financial assistance award and is not classified as a
       subrecipient;

    4. The Coordination of Humanitarian Assistance, CARE International, and Danish Committee for Aid
       to Afghan Refugees were identified as subrecipients, but had a series of transactions recorded to
       both the domestic subcontract and foreign subcontract accounts; and

    5. IRD’s A-133 audit reports included $211,699,450 in total subrecipient expenditures for fiscal
       years 2008 through 2011 under the AVIPA program. The subrecipient population provided by IRD
       following the Director of Grants and Contracts Accounting’s review totaled $5,718,138 while the
       total subgrant expenditures per the expenditure support is $17,556,932. The differences are
       unreconciled.




                                                (Continued)

                                                                                                          26.
In addition, IRD identified certain items recorded within the equipment categories that may have pertained
to supplies due to equipment entries having been made in batches yet containing no individual items
valued greater than $5,000. Thus, IRD could not reconcile the transactions recorded to the equipment
account to the inventory documents provided.

A series of transactions within the transaction detail also did not have adequate memo entries or
excluded the vendor, contractor, or subrecipient names. Therefore, one cannot determine through review
of the ledgers what the total extent of the misclassifications is and what adjustments are necessary to
correct for the misclassifications by account.

Questioned costs: None.

Effect: IRD may have mischarged the Government for indirect costs due to the misclassifications included
within the transaction records.

Cause: Employees inputting the transactions into the financial system miscoded transactions, and
management did not detect the errors during the review and approval processes. Per discussion with
IRD, field accountants periodically encounter language barriers due to similarity of terms (e.g.,
subcontract versus subgrant), which resulted in some errors. It is unclear why the managerial reviews did
not detect and correct the errors or what has driven the differences between the subrecipient populations
provided by management and those in other reports.

Recommendation: We recommend that IRD:

    1. Conduct a review of all transactions charged to cost categories that were not excluded from the
       NICRA application and identify any necessary reclassifications;

    2. Incorporate each of the changes into a comprehensive listing of adjustments containing any
       resulting ineligible overhead charges;

    3. Submit the listing of discrepancies to USAID and remit any resultant ineligible overhead charges;
       and

    4. Develop, document, and implement a monitoring process by which transactions are periodically
       reviewed to test the effectiveness of the field’s managerial review of transaction entries.

We further recommend that IRD modify its finance manual for field office staff and develop a training
document to assist field office staff in understanding the differences between subgrants, subcontracts,
and other similarly named account types.




                                               (Continued)

                                                                                                      27.
Finding 2014-07: Procurement: Supporting Documentation and Procurement Population

Significant Deficiency and Non-Compliance

Criteria: Pursuant to the provisions of Title 22, Parts 226.43, 226.45, and 226.46, IRD is required to:

        Conduct procurement procedures in a manner that provides, to the maximum extent practical,
        open and free competition, and to make awards to the bidder or offeror whose bid or offer is most
        advantageous to IRD, price quality and other factors considered
        Conduct a cost or price analysis for every procurement action and document the analysis; and
        For purchases in excess of the small purchase threshold, maintain procurement records and files
        that include documentation showing a) the basis for contractor selection; b) justification for lack of
        competition when competitive bids or offers are not obtained; and c) the basis for award cost or
        price.

Title 22, Part 226.21, Standards for financial management systems, requires recipients’ financial
management systems to provide for the following items (not exhaustive):

        Accurate, current and complete disclosure of the financial results of each federally-sponsored
        project or program;
        Records that identify adequately the source and application of funds for federally-sponsored
        activities.   These records shall contain information pertaining to all Federal awards,
        authorizations, obligations, unobligated balances, assets, outlays, income and interest;
        Effective control over and accountability for all funds, property and other assets. Recipients shall
        adequately safeguard all such assets and assure they are used solely for authorized purposes;
        and
        Accounting records, including cost accounting records that are supported by source
        documentation.

Per 22 CFR Part 226.2, obligations are defined as “the amounts of orders placed, contracts and grants
awarded, services received and similar transactions during a given period that require payment by the
recipient during the same or a future period.

IRD's Finance Manual required written bids for purchases exceeding $25,000. The 2011 Procurement
Manual restated the requirement to state that three written bids are required for procurements of items
and services over $3,000.

Per 22 CFR Part 226.53(b), “Financial records, supporting documents, statistical records, and all other
records pertinent to an award shall be retained for a period of three years from the date of submission of
the final expenditure report or, for awards that are renewed quarterly or annually, from the date of the
submission of the quarterly or annual financial report, as authorized by USAID.”

Condition: IRD was unable to produce a procurement population consisting of all obligations that IRD
entered into with Federal funds; the population would include all purchase orders, contracts, and
subaward agreements that were executed.

In the absence of a complete procurement population, a sample of 62 unique procurements was selected
for audit using the transaction detail. During our review of documentation provided by management to
support the procurement of the associated goods and services, we noted the following matters:

    1. IRD could not produce documentation showing that bids or quotes were obtained for six
       procurements that exceeded IRD’s small purchase threshold;

    2. Documentation was unavailable to demonstrate the cost and price analyses were conducted for
       five procurements; and

    3. No documentation was available to support the procurement of one transaction.

                                                (Continued)

                                                                                                          28.
As a result, one cannot determine if IRD implemented the procedures required by the Government to help
ensure that costs incurred are reasonable.

In those instances where IRD could produce neither the cost-price analysis, nor the evidence of
competitive procedures, there was inadequate support to demonstrate that the costs incurred were
reasonable. Accordingly, the associated costs are questioned. The following table summarizes the
exceptions by transaction and the questioned costs. Note that, in some instances, multiple transactions
may relate to a single procurement action. In those cases, each transaction description will be listed on a
single row with the applicable vendor.


                             Transaction
                                                                                  Transaction     Amount in
         Vendor            Description Per       Description of Error/Issue
                                                                                    Amount        Question
                          Financial Records
Khepal Construction      HLD544 Khepal Const    Competitive bid copies were           $141,984           $0
Company                  company-V1             not provided.


SkyLink Aviation, Inc.   Foreign Subcontracts   Competitive bid copies were           $322,200           $0
                         OVER $25K              not provided.


Sayara Media             SV1103/009 Sayara      Competitive bid copies were             $71,244          $0
                         Media Commun           not provided.


Obaid Zada LTD           KDR2543 Obaid Zada     Competitive bid copies were             $81,019          $0
                         LTD.Co                 not provided.


Lex Inn LLC              KV1106/002 LEX INN     Neither the cost-price analysis          $5,350       $5,350
                         LLC -                  nor the competitive bid
                                                evidence was available.

Ziba Helmand             HLD1697 ZHCC-V45       A copy of the documented                $11,895          $0
                                                cost-price analysis was not
                                                produced.
Faisal Zabih             UV0810/002 V000 -      No     documentation        was         $57,680      $57,680
                         Faisal Zabih           provided for this transaction.


EAM Inc. / Mosley &      Audit svcs AVIPA       A copy of the documented                $38,325          $0
Associates               50% dep                cost-price analysis was not
                                                produced.

Totals                                                                                $729,697       $63,030




Questioned costs: $63,030

Effect: The Government may have been overcharged for services rendered and funded by the AVIPA
program. In addition, the absence of a complete procurement population increases the risk that controls
may be circumvented and go undetected by management.

Cause: IRD did not consider it necessary to maintain a listing of all completed procurement actions.
Further, due to the transaction detail not always containing the name of the vendor and good or service
purchased, IRD was unable to generate a listing of all procurements/obligations using the ledger. It is
unclear why the cost-price analyses and competitive bid documents were not retained as part of the
procurement files.



                                                 (Continued)

                                                                                                         29.
Recommendation: With regard to the errors resulting in questioned costs, we recommend that IRD
conduct a market price analysis or execute a similar procedure to document the reasonableness of the
costs incurred and provide the results of the assessment, including supporting working papers, to USAID
for review. If support for cost reasonableness is unable to be assembled, then IRD should remit the
$63,030 to the Government.

Regarding the procurement files that did not include a cost-price analysis or copies of competitive bids,
we recommend that IRD draft and distribute a memorandum to procurement officials responsible for file
contents that communicates the procurement file content requirements and records retention
requirements applicable to Federally-funded programs.

Regarding the population of procurements, we recommend that IRD proceed with implementation of the
procurement module of its financial system and ensure that a procurement population may be produced
on a per award basis. Alternatively, should IRD elect not to implement the procurement module, then IRD
should establish and document a procedure for the development and maintenance of a procurement
listing that includes the full procurement population for a given program. Further, IRD should modify its
procurement policy to require a periodic review of this item by appropriate supervisory staff for accuracy
and completeness during its internal monitoring process.




                                               (Continued)

                                                                                                      30.
Finding 2014-08: Subrecipient Monitoring

Significant Deficiency

Criteria: Volume 3, Section 7.5.2 of IRD’s Finance Manual requires that the Program Officer perform
periodic on-site monitoring of subrecipient activities.

Per ADS Chapter 591, IRD, as the prime recipient of USAID funding, must ensure that foreign nonprofit
subrecipients adhere to the annual audit requirement outlined in ADS Chapter 591, Paragraph 591.3.2.1.
Paragraph 591.3.2.1 states, “Foreign nonprofit organizations, host governments, and subrecipients that
expend $300,000 or more in USAID awards (i.e., organizations that receive USAID funds either directly or
through a prime contractor or recipient) during their fiscal year, must have an annual audit conducted of
those funds in accordance with the Guidelines for Financial Audits Contracted by Foreign Recipients.

Further, ADS Chapter 591 states, “Subrecipients must submit copies of their audits to the prime recipient
for the auditor’s review as part of the prime’s annual audit. If the auditor determines that the subrecipient
is not performing audits or that the audits are deficient or defective, the auditor must include a
recommendation in the prime’s audit report to have the subrecipient’s audits performed or the deficient or
defective issues corrected.”

Condition: We selected four of six subrecipients for testing to determine 1) if IRD implemented
monitoring procedures as required in the entity’s procedures and 2) if the subrecipients were being
audited as required by applicable regulations. IRD did not produce documentation to demonstrate that
the on-site monitoring procedures were conducted during the course of the program for the four
subrecipients. IRD was able to produce alternative documentation (i.e., evidence of IRD’s review of
monthly invoices and programmatic reports) to indicate that desk reviews were conducted for three of the
four subrecipients in the sample. IRD did not, however, provide evidence of a review of monthly invoices
- including a review of a programmatic report by the Chief of Party - for the April 2009 invoice from the
Danish Committee for Aid to Afghan Refugees.

In addition, IRD did not request, receive, or review a copy of CARE International in Afghanistan’s audit for
fiscal year 2009 during the program’s period of performance. CARE expended greater than $300,000 in
AVIPA funds during fiscal year 2009 thereby triggering the audit requirement. IRD communicated with
CARE during the course of this audit and obtained a written representation from CARE stating that there
were no findings applicable to the AVIPA program in CARE’s 2009 audit report. IRD also indicated that it
reviewed the audit report online to identify any findings pertaining to Afghanistan that may have impacted
the AVIPA program.

Questioned costs: None

Effect: There is an increased likelihood that subrecipients’ noncompliance with provisions applicable to
the AVIPA program may have been undetected.

Cause: Per discussion with IRD, the recipient did not retain evidence of on-site monitoring because 1)
IRD works closely with subrecipients in the field; and 2) the Chief of Party’s review and approval of an
invoice served as evidence that work performed under the applicable scope of work had been completed.

IRD rated CARE Afghanistan as 'outstanding' on the Contractor Performance Evaluation and, therefore,
did not feel that an audit was necessary.

Recommendation: We recommend that IRD obtain a copy of CARE’s audit report and accompanying
management letter and document the review of the report and letter for any findings or matters of
noncompliance that may have an impact on the AVIPA program’s financial position. If any such matters
are noted, then IRD should adjust the program’s financial records, as appropriate.

We further recommend that IRD issue a written instruction to management within its field office instructing
the field office to follow the documented monitoring procedure and ensure that on-site monitoring
activities are occurring as required in IRD’s Finance Manual.


                                                (Continued)

                                                                                                         31.
Lastly, we recommend that IRD issue a written reminder to its field offices communicating the requirement
that audits be conducted and expressly indicating that contractor performance reviews may not serve as
a substitute for the audits required under Federal guidelines.




                                              (Continued)

                                                                                                     32.
Finding 2014-09: Equipment Disposition

Significant Deficiency and Non-Compliance

Criteria: Pursuant to 22 CFR Part 226.34(g) pertaining to the disposition of USAID-financed equipment
and property, the recipient shall request disposition instructions from the Agreement Officer. The
recipient shall follow the disposition instructions or, if disposition instructions are not issued within 120
calendar days after the request, then the recipient shall sell the equipment and reimburse USAID an
amount to be calculated in the manner prescribed in Section 226.34. The amount of compensation
payable to USAID shall be computed by applying the percentage of Federal participation in the cost of the
original project or program to the current fair market value of the equipment.

Condition: IRD identified 65 nonexpendable property items valued at $5,000 or more within its close-out
plan dated March 12, 2011, submitted to USAID for review. IRD indicated that no nonexpendable
property items were still in-use for program purposes and all such items had been transferred or disposed
of. To test IRD’s compliance with USAID’s disposition instructions and applicable regulations, we
selected a sample of nonexpendable equipment and property and requested to view:

    1. A copy of USAID’s disposition instructions; and

    2. Evidence of the receiving organization’s receipt.

IRD did not provide evidence of receipt for eight items or a copy of the disposition instructions for nine
items. In addition, the documentation provided for two other items did not tie to the information included
in the close-out report. Therefore, we could not determine whether the nonexpendable equipment and
property items were disposed of in a manner consistent with USAID’s disposition instructions.

The total purchased cost associated with the items in question is $343,680, of which $196,480 is
questioned. With regard to the vehicles that were selected for testing of compliance with disposition
requirements, IRD represented that no vehicles were purchased with AVIPA program funds. Rather, IRD
indicated that vehicles were transferred to IRD from other USAID implementing partners and documents
and inventories referencing an IRD purchase cost was in error.2 IRD was unable to locate documentation
of the original transfers from the implementing partners to IRD. Per review of the financial records and
documentation available for audit, no vehicle purchases were identified. Therefore, the amounts
referenced for vehicles are not questioned within this report.

The following table summarizes the issues per item:

                                                                                                     Questioned
                                                                         IRD Purchase Cost Per
    Item             Description           Description of Error/Issue                                  Cost
                                                                           the Close-Out Plan
                                                                                                      Amount
VTC           VTC-Microphone               Documentation      showing                      $6,499          $6,499
System                                     that     the   organization
                                           identified by IRD as the
                                           recipient of the disposed
                                           item received it was not
                                           provided.
VTC           VTC Receiver                 Documentation      showing                      $6,499              $0
System**                                   that     the   organization
                                           identified by IRD as the
                                           recipient of the disposed
                                           item received it was not
                                           provided.



2
 See Finding 2014-14 of this report for additional property record and inventory management matters unrelated to
asset disposition.


                                                  (Continued)

                                                                                                              33.
                                                                                                  Questioned
                                                                          IRD Purchase Cost Per
   Item           Description             Description of Error/Issue                                Cost
                                                                            the Close-Out Plan
                                                                                                   Amount
Generator   50 KVA Generator-FGW          Documentation      showing                    $28,400      $28,400
                                          that     the   organization
                                          identified by IRD as the
                                          recipient of the disposed
                                          item received it was not
                                          provided.
Vehicle*    Toyota Land Cruiser Soft      Documentation      showing                    $24,644           $0
            Skin                          that     the   organization
                                          identified by IRD as the
                                          recipient of the disposed
                                          item received it was not
                                          provided.
Vehicle*    Toyota  Land        Cruiser   Documentation      showing                    $24,849           $0
            Armored                       that     the   organization
                                          identified by IRD as the
                                          recipient of the disposed
                                          item received it was not
                                          provided.
Vehicle*    Toyota  Land        Cruiser   Documentation      showing                    $24,849           $0
            Armored                       that     the   organization
                                          identified by IRD as the
                                          recipient of the disposed
                                          item received it was not
                                          provided.
Vehicle*    Toyota  Land        Cruiser   Documentation      showing                    $66,353           $0
            Armored                       that     the   organization
                                          identified by IRD as the
                                          recipient of the disposed
                                          item received it was not
                                          provided.
Connex      20 Feet                       A     copy    of     USAID’s                  $15,667      $15,667
                                          disposition instructions was
                                          not                 provided.
                                          Documentation        showing
                                          that     the     organization
                                          identified by IRD as the
                                          recipient of the disposed
                                          item received it was also
                                          not provided.
Connex      20 Feet                       A    copy     of     USAID’s                  $15,667      $15,667
                                          disposition instructions was
                                          not provided.
Generator   110 KVA Perkins               A    copy     of     USAID’s                   $5,444       $5,444
                                          disposition instructions was
                                          not provided.
Generator   50 KVA Generator-FGW          A    copy     of     USAID’s                  $12,778      $12,778
                                          disposition instructions was
                                          not provided.
Generator   110 KVA-Olympian              A    copy     of     USAID’s                   $9,778       $9,778
                                          disposition instructions was
                                          not provided.
Connex      20 Feet                       A    copy     of     USAID’s                  $12,267      $12,267
                                          disposition instructions was
                                          not provided.



                                                 (Continued)

                                                                                                         34.
                                                                                                       Questioned
                                                                           IRD Purchase Cost Per
   Item               Description           Description of Error/Issue                                   Cost
                                                                             the Close-Out Plan
                                                                                                        Amount
Connex        20 Feet                       A    copy     of     USAID’s                    $12,267         $12,267
                                            disposition instructions was
                                            not provided.
Connex        20 Feet                       A    copy     of     USAID’s                    $12,267         $12,267
                                            disposition instructions was
                                            not provided.
Connex        40 Feet                       A    copy     of     USAID’s                    $12,267         $12,267
                                            disposition instructions was
                                            not provided.
Generator     250 KVA-FGW                   The USAID disposition                           $24,785         $24,785
                                            instructions provided as
                                            support by IRD does not tie
                                            to the information included
                                            within the closeout report.
Generator     50 KVA Generator-FGW          The receipt record from the                     $28,400         $28,400
                                            organization receiving the
                                            item does not tie to the
                                            information included within
                                            the closeout report.
TOTAL                                                                                      $343,680        $196,486

* Items listed with an asterisk reflect items that IRD represented as not having been purchased for the AVIPA
program, but rather that were transferred to IRD by another implementing partner.

** This item is excluded from the questioned cost calculation due to the item’s cost being included as a component of
the total VTC System, which is questioned in the first item.

Questioned costs: $196,486, which reflects the sum of the purchase cost for each of the items in question
in the absence of supporting documentation demonstrating fair market value amounts for each item.

Effect: IRD may have disposed of the property in a manner inconsistent with USAID’s instructions and not
have remitted the necessary funds to the Government. Disposition of 18 of 25 items tested was
inadequately supported and represented $343,680 of $456,817 tested. The total value of equipment and
property used on the AVIPA program was $4,577,921, per review of the 2011 AVIPA inventory, inclusive
of both nonexpendable and expendable property and equipment.

Cause: IRD lacks adequate internal controls to ensure that property and equipment records are retained
and assets purchased for or transferred to IRD for use on the AVIPA project are appropriately monitoring
and recorded in the records.

Recommendation: We recommend that IRD provide evidence of USAID's disposition instructions and
evidence that the entity received the nine equipment and property items. In the event that IRD is not able
to substantiate transfer of the equipment item consistent with USAID’s instruction, IRD should provide the
physical location of each item so that an inspection can take place. If the necessary supporting
documentation cannot be provided, then IRD should calculate the market value of the nonexpendable
property items as of the disposition date, submit the calculations to USAID for review and approval, and
remit the total value of the items to the Government.

We further recommend that IRD develop and issue a written memorandum to its program staff and those
charged with responsibility for records retention reinforcing the Federal requirements applicable to
retention of records and supporting documentation. We further recommend that IRD develop and deliver
a training to its program staff regarding the requirements and procedures pertaining to records retention.




                                                   (Continued)

                                                                                                                 35.
Finding 2014-10: Suspension and Debarment Procedures

Significant Deficiency

Criteria: Section 4.3 of the IRD Procurement Policy states:

        4.3 IRD will not make an award or permit an award at any tier to any party that is debarred or
        suspended or is otherwise excluded from or ineligible for participation in Federal procurement
        activities. IRD will require all proposed contractors at any tier to certify whether they have been
        excluded from participation in Federal procurement activities. Before award, IRD will consult at
        the minimum the US Government Excluded Parties List at www.epls.gov , as well as other
        available resources in the country of performance as appropriate, and document the contract file
        that this list was consulted. Please see Appendix C for instruction on completing EPLS screening.
        It may also be necessary to review local host country “denied parties” listings or the “denied
        parties” listings of donor nations to ensure that IRD only contracts with appropriate sources.

Per 22 CFR Part 226.13, IRD is restricted from issuing contracts or subawards to certain parties that are
debarred, suspended, or otherwise excluded from or ineligible for participation in Federal assistance
programs or activities.

Condition: IRD did not provide documentation showing that searches of the Excluded Parties List System
(“EPLS”) were conducted prior to IRD’s contracting for or otherwise procuring goods and services from
ten of 61 vendors. We conducted independent searches of the System for Award Management, which
replaced the EPLS, and did not identify any vendors that were suspended or debarred. Therefore, no
costs are questioned.

Questioned costs: None

Effect: The likelihood that IRD provided Federal funds to excluded parties is increased.

Cause: IRD was unable to locate documentation of EPLS searches for the corresponding transactions.

Recommendation: We recommend that IRD issue a memorandum to its procurement managers
reinforcing the policy’s requirement that suspension and debarment searches be conducted and evidence
of the search be retained in the contract file. IRD should also develop and conduct training to its
procurement managers regarding the procedures that should be implemented.




                                               (Continued)

                                                                                                       36.
Finding 2014-11: Budget Transfers and Reporting of Indirect Costs

Material Weakness and Non-Compliance

Criteria: Section 1.4(b)(A) of the cooperative agreement provides the following guidelines pertaining to
transfers of budgeted funds for indirect costs:

          Pursuant to 22 CFR 226.25(c)(5), the Recipient may transfer amounts budgeted for indirect costs
          to absorb increases in direct costs, but must comply with the requirement set forth in paragraph
          (b)(1) above to report the deviation in the budget plan. This approval does not authorize the
          Recipient to incur additional direct costs or undertake additional activities simply because of a
          reduction in indirect costs (e.g., where final indirect cost rates are lower than provisional rates
          used for budgeting purposes). If the Recipient transfers amounts budgeted for indirect costs to
          absorb increases in direct costs, the Recipient thereby waives any claim for additional funds to
          cover any subsequent inability by the Recipient to fully recover its actual allowable indirect costs.
          The transfer of amounts budgeted for direct costs to absorb increases in indirect costs must be
          approved by the Agreement Officer.

Condition: Modification #24 to the cooperative agreement realigned the program budget to provide for a
total of $36,896,740 in indirect costs. Per IRD’s financial records, $37,825,843 in indirect costs was
charged to the award, which exceeded the approved indirect cost budget by $929,103. As a result,
$929,103 in indirect costs funded by the Government and co-pay receipts were ineligible.

In addition, IRD’s preliminary final financial report dated July 18, 2013, reported $36,482,370 in total
indirect costs charged and represented that 100 percent of the amount was included as the Federal
Share. Per IRD’s financial records, $1,343,473 of the total $37,825,843 in indirect costs incurred as
referenced above was funded by program income. Thus, the indirect costs reported are misstated by
$1,343,473 – the amount of indirect costs funded with co-pay receipts, per IRD’s financial records.

The following table summarizes the approved budgetary amounts and actual charges, per IRD’s financial
records:

                                                              Actual Costs Per the
                                Budget per Modification
           Cost Type                                            Special Purpose              Difference
                                         #24
                                                              Financial Statement
  Direct Costs                              $466,187,249                $465,174,143              $1,013,105
  Indirect Costs                             $36,896,740                 $37,825,843              ($929,103)
  Total                                     $503,083,989                $502,999,986                 $84,002


Questioned costs: $929,103

Effect: $929,103 in indirect costs funded by the Government and co-pay receipts were ineligible for
reimbursement. The Government may also have relied upon an incorrect final financial report for
purposes of monitoring the program and understanding the cooperative agreement’s financial position
due to the error.

Cause: IRD indicated that the organization has adopted a practice by which a modification to the budget
is requested in conjunction with submission of the final financial report. Therefore, IRD has not requested
the revision to the program budget to support the amount of indirect costs charged to the award.

Recommendation: We recommend that IRD locate evidence of USAID’s approval of the budget deviation
during the program period and provide it as evidence of the increased indirect charges’ eligibility for
reimbursement or otherwise reimburse the Government for the $929,103 in indirect costs that exceeded
the approved amount. We further recommend that IRD modify its financial reporting procedures to
require that individuals reviewing financial reports agree the financial data elements reported to the
supporting detail prior to submission of the reports.


                                                  (Continued)

                                                                                                           37.
Finding 2014-12: NICRA Adjustments

Significant Deficiency and Non-Compliance

Criteria: Section II of the NICRA presents general instruction, including, but not limited to, the following:

D. Provisional-Final Rates: The grantee must submit a proposal to establish a final indirect cost rate
within nine months after its fiscal year end. Billings and charges to Federal awards must be adjusted if the
final rate varies from the provisional rate. If the final rate is greater than the provisional rate and there are
no funds available to cover the additional indirect costs, the organization may not recover all indirect
costs. Conversely, if the final rate is less than the provisional rate, the organization will be required to pay
back the difference to the funding agency.

E.1. Indirect costs charged to Federal grants/contracts by means other than the rate(s) cited in the
agreement should be adjusted to the applicable rate(s) cited herein which should be applied to the
appropriate base to identify the proper amount of indirect costs allocable to the program.

E.4. You are directed to promptly submit adjustment vouchers or final vouchers for all flexibly priced
grants, contracts or other agreements. Audit adjustments should be clearly delineated so as to be readily
identifiable for verification by this office. Care should be taken that amounts claimed do not exceed
award limitations or indirect cost rate ceilings.

Condition: Following receipt of final indirect cost rates for fiscal year 2012, IRD did not process the
financial adjustments to true-up charges based on provisional rates to align with the final rates. IRD
charged $209,960 to the award for FY2012 fringe benefit costs using the 44.18 percent provisional rate.
Utilizing the final rate of 43.40 percent, the amount that should have been charged was $206,252.
Therefore, a true-up adjustment of $3,708 should have been processed.

Questioned costs: $3,708.

Effect: Due to the final fringe benefit rate for FY2012 being less than the provisional rate, the AVIPA
program was overcharged.

Cause: IRD had not processed the true-up for FY2012 as the recipient was awaiting finalization of the
FY2013 NICRA to process all adjustments and to submit a final financial report.

Recommendation: With regard to the excess indirect costs charged to the award resulting from IRD’s not
completing a true-up following receipt of final FY2012 indirect cost rates, we recommend that IRD remit
$3,708 to the Government.




                                                  (Continued)

                                                                                                             38.
Finding 2014-13: Allowable Costs: Exchange Rate Application

Significant Deficiency and Non-Compliance

Criteria: Accounting Standards Codification 830 states that, “At the date a foreign currency transaction is
recognized, each asset, liability, revenue, expense, gain, or loss arising from the transaction shall be
measured initially in the functional currency of the recording entity by use of the exchange rate in effect at
that date.”

The Codification defines “transaction date” as “The date at which a transaction (for example, a sale or
purchase or merchandise or services) is recorded in accounting records in conformity with generally
accepted accounting principles (GAAP). A long-term commitment may have more than one transaction
date (for example, the due date of each progress payment under a construction contract is an anticipated
transaction date).”

GAAP also states that foreign currency transactions arise when a reporting entity (i.e., IRD) performs
certain actions including, but not limited to 1) buying or selling on credit goods or services whose prices
are denominated in foreign currency; or 2) for other reasons, acquires or disposes of assets, or incurs or
settles liabilities denominated in foreign currency.

Per OMB Circular A-122, costs must meet the following general criteria to be allowable:

    a. Be reasonable for the performance of the award and be allocable thereto under [the principles
       contained in OMB Circular A-122];
    b. Conform to any limitations or exclusions set forth in [OMB Circular A-122] or in the award as to
       types of amount of cost items;
    c. Be consistent with policies and procedures that apply uniformly to both federally-financed and
       other activities of the organization;
    d. Be accorded consistent treatment;
    e. Be determined in accordance with generally accepted accounting principles (GAAP);
    f. Not be included as a cost or used to meet cost sharing or matching requirements of any other
       federally-financed program in either the current or a prior period; and
    g. Be adequately documented.

Condition: IRD recorded a $12,780,032 payment offset entry (i.e., a reduction in the cash outlay amount
due to DASA’s retention of co-pay receipts) which contributed to the total amount of revenues earned.
The offset calculation included a mathematical error. When converting the amount of 639,001,600
Afghanis to U.S. dollars for purposes of identifying the amount payable to the vendor, IRD calculated the
amount as $12,803,829 using a 50:1 exchange rate. Due to the $12.8 million contributing to the final
calculation of the amount payable to Durukhshan Agricultural & Social Association Ltd (“DASA”), the
mathematical error impacted the final settlement calculation resulting in an undercharge to the
Government of $23,797.

During our review of the supporting documentation, we noted that IRD’s contract modification with DASA
identified the revised payment and contract amounts as effective January 31, 2010. Under generally
accepted accounting principles, the current exchange rate at the transaction date, January 21, 2010,
should be used for conversions of foreign currency to U.S. dollars. IRD utilized the 50:1 exchange as
noted in the contract modification. This method results in the use of an average rate from an incorrect
relevant range/time period. Rather, the relevant date would be January 31, 2010, the effective date of the
modification. On that date, the average ask price (price to buy or convert Afghanis to U.S. dollars as
noted in IRD’s support) was 47.48 Afghanis per U.S. dollar, per the OANDA Corporation’s historical
exchange rate records. The change between the 47.48 rate and the 50.00 rate was considered to be and
to result in an unreasonable cost passed on to the Government.




                                                (Continued)

                                                                                                          39.
Use of the correct rate would have resulted in an alternate final settlement amount payable to DASA and
a different offset entry amount. Conversion of the 639,001,600 Afghanis at the 47.48 rate would have
resulted in a revenue offset of $13,458,332 or $678,300 greater than the offset entry recorded. The
originally recorded $12.780 million was included within the co-pay funds reinvested into the program;
therefore, the $678,300 change would have resulted in an increase to the co-pay funds that should have
been reinvested into the program.

The amount charged to the award for the transaction, per IRD’s supporting documentation, was
$400,544. Use of the 47.48 rate would have resulted in a final amount receivable from DASA of
$253,959. Therefore, the Government was overcharged by $654,503 ($400,544 original outlay amount
plus the overpayment of $253,959 equals the overcharge of $654,503).

See Appendix B to this report for a schedule presenting IRD’s calculation to arrive at the $400,544
amount, the recalculation correcting for the mathematical error, and the recalculation to arrive at the
$253,959 receivable amount.

Questioned costs: $654,503

Effect: The Government was overcharged as a result of IRD’s incorporating a fixed exchange rate into the
contract with DASA rather than using the current exchange rate consistent with accounting principles
generally accepted in the United States. Further, the co-pay funds received were misstated due to an
exchange rate error resulting in $678,300 in co-pays less than appropriate being reinvested into the
program.

Cause: IRD considered the incorporation of the fixed exchange rate into the contract to be appropriate
and utilized the median exchange rate from the period of the contract’s original negotiation. In addition,
IRD considered the contract language to constitute the governing guidance and did not consider the
application of GAAP to impact allowability.

Recommendation: We recommend that IRD reimburse the Government for the $654,503.




                                                                                                      40.
Finding 2014-14: Property Records and Inventory

Material Weakness and Non-Compliance

Criteria: Pursuant to Title 22, Part 226.34(f)(3), “A physical inventory of equipment shall be taken and the
results reconciled with the equipment records at least once every two years. Any differences between
quantities determined by the physical inspection and those shown in the accounting records shall be
investigated to determine the causes of the difference. The recipient shall, in connection with the
inventory, verify the existence, current utilization, and continued need for the equipment.”

22 CFR Part 226.34(f) requires that equipment records be maintained accurately and include the
following information:
     a. A description of the equipment;
     b. Manufacturer’s serial number, model number, Federal stock number, national stock number, or
        other identification number;
     c. Source of the equipment, including the award number;
     d. Whether title vests in the recipient, the Federal Government, or other specified entity;
     e. Acquisition date (or date received, if the equipment was furnished by the Federal Government)
        and cost;
     f. Information from which one can calculate the percentage of Federal participation in the cost of the
        equipment (not applicable to equipment furnished by the Federal Government);
     g. Location and condition of the equipment and the date the information was reported;
     h. Unit acquisition cost; and
     i. Ultimate disposition data, including date of disposal and sales price or the method used to
        determine current fair market value where a recipient compensates USAID for its share.

Condition: IRD’s special purpose financial statement (“SPFS”), as supported by IRD’s financial
accounting records, included $4,665,048 in equipment charges, inclusive of both non-expendable and
expendable property items. Upon review of IRD’s “628 AVIPA Inventory listing 2011” file, we noted the
following items:

    1. The total amount of the equipment and property included in the AVIPA inventory was $4,577,921,
       which varied from the SPFS by an unreconciled amount of $87,127.
    2. The inventory omitted the “Source” data element and disposition data required by Federal
       regulation.
    3. IRD indicated that no vehicles were purchased using AVIPA project funds, but rather were
       transferred to IRD by other implementing partners. The same was communicated to USAID
       within the close-out plan dated March 12, 2011. The inventory, however, included 19 vehicles
       with reported “IRD Purchase Cost[s]” of $780,713. IRD’s close-out plan submitted to USAID
       included a total of $451,425 associated with 18 vehicles. The variance of $329,288 is
       unreconciled.
    4. During a comparison of the amounts referenced as the “IRD Purchase Cost” in the inventory to
       the amounts presented in the close-out plan submitted to USAID, the amounts for ten items did
       not agree and one item (an Olympian 50 KV generator located in the NAWA-FOB building in
       Helmand) was not located in the inventory file.

In addition, IRD did not produce a copy of the reconciliation of the inventory to the accounting records.

Questioned costs: None

Effect: One cannot determine whether the inventory submitted to USAID was accurate and whether or not
the items noted by IRD as having been acquired and/or used for the AVIPA project were used for the
intended purposes.

Cause: IRD could not locate the reconciliation of the inventory to the accounting records. IRD did not
implement adequate reviews over AVIPA program inventories to ensure that inventories and supporting
records were accurate and complete.




                                                                                                            41.
Recommendation: We recommend that IRD conduct a search of program records and locate the
reconciliation of the AVIPA inventory to the accounting records. If IRD cannot locate the reconciliation,
then we recommend that IRD complete a reconciliation and make the adjustments necessary to address
reconciling differences. We further recommend that IRD modify its Property Management Guidelines to
require a review of inventory records and a sign-off on the reconciliation by management showing that the
review occurred.




                                                                                                     42.
SECTION 2: Summary Schedule of Prior Findings

Per discussion with International Relief and Development, Inc., and USAID, six audits had been
conducted that included the AVIPA program within their audit scopes. Five of the reports were audits
were IRD’s Single Audits conducted in accordance with OMB Circular A-133 for fiscal years 2008 through
2012. None of the reports included findings pertaining to the AVIPA program and that are direct and
material to the Special Purpose Financial Statement.        Accordingly, there were no findings or
recommendations required for review

An additional audit was performed of the AVIPA program by the USAID Regional Inspector General’s
Office. However, the audit was of USAID’s implementation of the program rather than of IRD, and the
recommendations were closed as of July 12, 2010, per the closure memoranda provided by USAID.
Recommendations included within the report were directed to USAID’s Mission. No further procedures
were considered necessary.




                                                                                                  43.
APPENDIX A: Calculation of Interest Owed to the Government

The table presented on the following pages presents the calculation of the $2,912 in imputed interest
resulting from IRD’s retention of excess Federal cash referenced in Finding 2014-03.




                                                                                                 44.
                                                                 Excess Cash
                                    Cumulative Expenditures      (Cumulative
                                                                                       Daily Interest
Month     Cumulative Drawdowns       (Current Month Plus 30    Expenditures less                        Days Outstanding       Interest ($)
                                                                                          Rate**
                                             Days)*               Cumulative
                                                                 Drawdowns)

Sep-08                   $816,000                $ 5,749,182      $                -                -                  -   $                  -
Oct-08                 $7,472,000                $10,387,155      $                -                -                  -   $                  -
Nov-08                $24,183,000                $29,418,319      $                -                -                  -   $                  -
Dec-08                $28,948,000                $30,033,348      $                -                -                  -   $                  -
Jan-09                $29,550,000                $30,907,773      $                -                -                  -   $                  -
Feb-09                $31,310,000                $39,234,776      $                -                -                  -   $                  -
Mar-09                $38,985,000                $41,031,355      $                -                -                  -   $                  -
Apr-09                $47,177,000                $43,597,438            $3,579,562         0.0000096                  30                $1,031
May-09                $47,391,000                $45,781,127            $1,609,873         0.0000096                  30                  $464
Jun-09                $46,775,000                $47,735,039      $                -                -                  -   $                  -
 Jul-09               $47,509,965                $50,618,145      $                -                -                  -   $                  -
Aug-09                $49,507,965                $52,575,448      $                -                -                  -   $                  -
Sep-09                $61,122,965                $53,860,072            $7,262,892         0.0000033                  30                  $719
Oct-09                $61,617,965                $72,268,965      $                -       0.0000035                   -   $                  -
Nov-09                $63,832,965                $87,811,918      $                -       0.0000035                   -   $                  -
Dec-09                $93,364,965                $96,263,910      $                -       0.0000035                   -   $                  -
Jan-10               $111,096,965               $102,741,051            $8,355,913         0.0000033                  30                  $827
Feb-10               $120,449,965               $124,576,953      $                -                -                  -   $                  -
Mar-10               $135,273,965               $147,524,124      $                -                -                  -   $                  -
Apr-10               $164,977,965               $169,654,125      $                -                -                  -   $                  -
May-10               $187,844,965               $197,641,898      $                -                -                  -   $                  -
Jun-10               $216,899,965               $219,860,262      $                -                -                  -   $                  -
 Jul-10              $229,169,822               $254,142,560      $                -                -                  -   $                  -




                                                                                                                                                  45.
Aug-10    $256,736,822   $272,535,150   $          -           -    -       $     -
Sep-10    $267,473,822   $300,363,646   $          -           -    -       $     -
Oct-10    $293,540,822   $319,612,412   $          -           -    -       $     -
Nov-10    $316,978,822   $370,741,851   $          -           -    -       $     -
Dec-10    $340,860,822   $387,970,056   $          -           -    -       $     -
Jan-11    $351,342,822   $394,429,665   $          -           -    -       $     -
Feb-11    $382,563,822   $413,596,202   $          -           -    -       $     -
Mar-11    $391,771,822   $430,112,874   $          -           -    -       $     -
Apr-11    $412,598,611   $436,672,044   $          -           -    -       $     -
May-11    $429,103,611   $441,745,102   $          -           -    -       $     -
Jun-11    $436,832,611   $448,095,787   $          -           -    -       $     -
 Jul-11   $440,171,611   $455,458,477   $          -           -    -       $     -
Aug-11    $454,432,611   $462,358,693   $          -           -    -       $     -
Sep-11    $462,255,611   $463,750,302   $          -           -    -       $     -
Oct-11    $467,012,611   $466,090,946       $921,665   0.0000017   30           $47
Nov-11    $467,110,611   $467,274,680   $          -           -    -   $         -
Dec-11    $468,185,611   $467,403,306       $782,305   0.0000017   30           $40
Jan-12    $468,185,611   $467,520,358       $665,253   0.0000017   30           $34
Feb-12    $464,853,611   $466,614,198   $          -           -    -       $     -
Mar-12    $465,256,611   $466,726,088   $          -           -    -       $     -
Apr-12    $465,256,611   $466,845,364   $          -           -    -       $     -
May-12    $466,360,611   $467,451,734   $          -           -    -       $     -
Jun-12    $467,093,611   $467,278,206   $          -           -    -       $     -
 Jul-12   $467,093,611   $467,389,773   $          -           -    -       $     -
Aug-12    $466,607,019   $467,944,378   $          -           -    -       $     -
Sep-12    $466,607,019   $468,315,128   $          -           -    -       $     -
Oct-12    $466,607,019   $469,317,044   $          -           -    -       $     -




                                                                                      46.
  Nov-12                      $467,278,019                    $469,426,095            $                -                  -                     -      $              -
  Dec-12                      $468,418,019                    $469,669,403            $                -                  -                     -      $              -
  Jan-13                      $468,825,019                    $469,816,409            $                -                  -                     -      $              -
  Feb-13                      $469,035,019                    $469,923,947            $                -                  -                     -      $              -
  Mar-13                      $469,067,019                    $469,716,278            $                -                  -                     -      $              -
  Apr-13                      $469,234,019                    $469,716,288            $                -                  -                     -      $              -
 May-13                       $469,336,019                    $470,022,278            $                -                  -                     -      $              -
  Jun-13                      $469,336,019                    $469,620,521            $                -                  -                     -      $              -
   Jul-13                     $469,536,019                    $469,627,429            $                -                  -                     -      $              -
  Aug-13                      $469,536,019                    $469,627,429            $                -                  -                     -      $              -
  Sep-13                      $469,536,019                    $469,627,429            $                -                  -                     -      $              -
  Oct-13                      $469,536,019                    $469,629,649            $                -                  -                     -      $              -
  Nov-13                      $469,628,890                    $469,629,649            $                -                  -                     -      $              -
  Dec-13                      $469,628,890               $                 -          $                -                  -                     -      $              -
Total Interest                                                                                                                                                  $3,162
Less: Interest Income Eligible for Retention                                                                                                                    ($250)
Imputed Interest                                                                                                                                                $2,912
* IRD does not have documentation of fringe benefit costs incurred on a monthly basis. Therefore, fringe benefit costs are distributed throughout the period.


** IRD did not maintain Federal drawdowns in interest-bearing accounts. Therefore, the U.S. Department of Treasury's daily interest rates were used for purposes of
calculating interest that would have been earned on funds advanced to IRD.




                                                                                                                                                                          47.
APPENDIX B: Recalculation of DASA Overpayment

The table presented on the following pages presents a recalculation of DASA’s final payment after 1)
correcting for the mathematical error made during the initial calculation and 2) using the exchange rate in
effect at the time the contract with DASA was renegotiated. The schedule supports the $654,503 in
questioned costs referenced in Finding 2014-13. Preceding the schedule is a page from IRD’s supporting
documentation showing the use of the conversion from Afghanis to U.S. dollars in calculation of payment
due to the vendor.




                                                                                                       48.
49.
                                                 Auditor Recalculation    Auditor Recalculation
                               IRD Support       to Correct Calculation     to Use of Current
                                                         Error            Rate at Renegotiation


Total Contract                 $40,512,805.00           $40,512,805.00           $40,512,805.00

Less: Inv #1 through #7      ($21,072,315.00)          ($21,072,315.00)        ($21,072,315.00)

Sub-Total                      $19,440,490.00           $19,440,490.00           $19,440,490.00
Less: Amount Held for 696
Vouchers                         ($72,972.00)              ($72,972.00)            ($72,972.00)
Amount Due - Invoice #8
Submitted                      $19,367,518.00           $19,367,518.00           $19,367,518.00

Less: 2% Withholding Tax        ($387,350.36)             ($387,350.36)           ($387,350.36)

Sub-Total                      $18,980,167.64           $18,980,167.64           $18,980,167.64
Less: Co-Pays received by
DASA                         ($12,803,828.64)          ($12,780,032.00)        ($13,458,331.93)
Amount Due after Co-Pay
Reduction                       $6,176,339.00            $6,200,135.64            $5,521,835.71
Actual Payment - September
2010                           ($4,569,738.51)          ($4,569,738.51)         ($4,569,738.51)
Actual Payment October
2010                           ($1,273,225.09)          ($1,273,225.09)         ($1,273,225.09)

Remaining Amount Due              $333,375.40              $357,172.04            $(321,127.89)

Adjustments to Amount Due
Less: Takhar Province
Modification                    ($367,710.10)             ($367,710.10)           ($367,710.10)
Add: Amount Withheld on
Previous Payment                   $77,960.92               $77,960.92               $77,960.92

Reduced Co-Pay Amounts            $365,384.61              $365,384.61             $365,384.61
Unredeemed Vouchers IRD
Owes DASA                           $1,533.65                $1,533.65                $1,533.65
Settlement Adjustment
Offered by DASA                  ($10,000.48)              ($10,000.48)            ($10,000.48)
Final Settlement (Amount
Payable to DASA):                 $400,544.00              $424,340.64            ($253,959.29)
Difference from IRD                         $
Support                                     -               $23,796.64            ($654,503.29)
Interpretation of Difference from IRD Support        Undercharge              Overcharge




                                                                                             50.
APPENDIX C: Calculation of Imputed Interest (Inclusive of Program Income)

The table presented on the following pages presents a calculation of interest lost by the Government due
to IRD’s retention of excess Federal cash and overdrawing of Federal funds due to program income not
having been expended prior to additional draws occurring. The schedule supports the $5,754 in imputed
interest referenced in Finding 2014-05.




                                                                                                    51.
                                     Cumulative        Excess Cash (Cumulative
               Cumulative
                                    Expenditures          Expenditures less       Daily Interest          Days
Month      Drawdowns and Co-                                                                                             Interest ($)
                                (Inclusive of Co-Pay    Cumulative Drawdowns         Rate**            Outstanding
                 Pays
                                   Expenditures)            and Co-Pays)

 Sep-08              $816,000             $5,749,182                $4,933,182                     0                 0         $           -

 Oct-08            $7,472,000            $10,387,155                $2,915,155                     0                 0         $           -

 Nov-08           $24,183,000            $29,418,319                $5,235,319                     0                 0         $           -

 Dec-08           $28,948,000            $30,033,348                $1,085,348                     0                 0         $           -

 Jan-09           $29,550,000            $30,907,773                $1,357,773                     0                 0         $           -

 Feb-09           $31,310,000            $39,234,776                $7,924,776                     0                 0         $           -

 Mar-09           $38,985,000            $41,031,355                $2,046,355                     0                 0         $           -

 Apr-09           $47,177,000            $43,597,438               ($3,579,562)        0.0000096                 30                $1,031

 May-09           $47,391,000            $45,781,127               ($1,609,873)        0.0000096                 30                     $464

 Jun-09           $46,775,000            $47,735,039                  $960,039                     0                 0         $           -

  Jul-09          $47,509,965            $50,618,145                $3,108,181                     0                 0         $           -

 Aug-09           $49,507,965           $ 52,575,448                $3,067,484                     0                 0         $           -

 Sep-09           $61,122,965            $53,860,072               ($7,262,892)        0.0000033                 30                     $719

 Oct-09           $61,617,965            $72,268,965               $10,651,000                     0                 0         $           -

 Nov-09           $68,571,907            $87,811,918               $19,240,011                     0                 0         $           -

 Dec-09           $98,103,907            $96,263,910               ($1,839,997)        0.0000033                 30                     $182

 Jan-10          $115,835,907          $102,741,051               ($13,094,856)        0.0000033                 30                $1,296

 Feb-10          $125,188,907          $124,576,953                 ($611,954)         0.0000033                 30                     $61

 Mar-10          $140,313,475          $147,524,124                 $7,210,650                     0                 0         $           -

 Apr-10          $170,643,991          $169,654,125                 ($989,865)         0.0000033                 30                     $98

 May-10          $194,506,869          $197,641,898                 $3,135,030                     0                 0         $           -




                                                                                                                                               52.
Jun-10    $223,656,456   $219,860,262   ($3,796,194)   0.0000033   30       $376

 Jul-10   $236,105,877   $254,142,560   $18,036,683           0     0   $      -

Aug-10    $263,693,278   $272,535,150    $8,841,872           0     0   $      -

Sep-10    $275,152,083   $300,363,646   $25,211,563           0     0   $      -

Oct-10    $302,213,881   $319,906,630   $17,692,749           0     0   $      -

Nov-10    $325,833,360   $371,292,845   $45,459,485           0     0   $      -

Dec-10    $350,063,312   $388,733,981   $38,670,669           0     0   $      -

Jan-11    $361,774,420   $398,882,127   $37,107,707           0     0   $      -

Feb-11    $393,354,673   $420,565,621   $27,210,948           0     0   $      -

Mar-11    $403,128,561   $438,179,911   $35,051,350           0     0   $      -

Apr-11    $428,684,850   $449,436,179   $20,751,328           0     0   $      -

May-11    $446,214,765   $458,894,691   $12,679,926           0     0   $      -

Jun-11    $457,105,609   $466,779,977    $9,674,368           0     0   $      -

 Jul-11   $460,499,053   $474,142,667   $13,643,614           0     0   $      -

Aug-11    $474,760,053   $482,105,125    $7,345,072           0     0   $      -

Sep-11    $482,857,805   $489,453,600    $6,595,795           0     0   $      -

Oct-11    $487,615,152   $491,860,743    $4,245,591           0     0   $      -

Nov-11    $500,493,184   $496,756,799   ($3,736,384)   0.0000017   30       $191

Dec-11    $501,568,184   $496,885,425   ($4,682,758)   0.0000017   30       $239

Jan-12    $501,568,184   $497,002,477   ($4,565,707)   0.0000017   30       $233

Feb-12    $498,236,184   $496,096,317   ($2,139,867)   0.0000017   30       $109

Mar-12    $498,639,184   $496,208,207   ($2,430,977)   0.0000017   30       $124

Apr-12    $498,639,184   $496,464,023   ($2,175,161)   0.0000017   30       $111

May-12    $499,743,184   $497,070,393   ($2,672,791)   0.0000017   30       $136




                                                                                   53.
     Jun-12            $500,476,184      $496,896,865   ($3,579,319)   0.0000017   30         $183

     Jul-12            $500,476,184      $497,008,431   ($3,467,753)   0.0000017   30         $177

    Aug-12             $499,989,592      $497,563,036   $(2,426,556)   0.0000017   30         $124

    Sep-12             $499,989,592      $498,396,573   ($1,593,020)    0.000002   30          $96

     Oct-12            $499,989,592      $499,397,729    ($591,863)     0.000002   30          $36

    Nov-12             $500,660,592      $500,437,869    ($222,723)     0.000002   30          $13

    Dec-12             $501,800,592      $501,697,350    ($103,242)     0.000002   30           $6

     Jan-13            $502,207,592      $502,405,445      $197,853           0      0   $        -

    Feb-13             $502,417,592      $502,575,194      $157,601           0      0   $        -

    Mar-13             $502,449,592      $502,745,081      $295,489           0      0   $        -

     Apr-13            $502,616,592      $502,807,333      $190,741           0      0   $        -

    May-13             $502,718,592      $503,020,507      $301,915           0      0   $        -

     Jun-13            $502,718,592      $502,990,858      $272,266           0      0   $        -

     Jul-13            $502,918,592      $502,997,766       $79,174           0      0   $        -

    Aug-13             $502,918,592      $502,997,766       $79,174           0      0   $        -

    Sep-13             $502,918,592      $502,997,766       $79,174           0      0   $        -

     Oct-13            $502,918,592      $502,999,986       $81,394           0      0   $        -

    Nov-13             $503,011,463      $502,999,986     ($11,477)     0.000002   30           $1

    Dec-13             $503,011,463      $502,999,986     ($11,477)     0.000002   150          $3

Total Interest:                                                                              $6,004

Less: Interest Eligible for Retention:                                                       ($250)

Total Imputed Interest Payable:                                                              $5,754




                                                                                                      54.
APPENDIX D: Views of Responsible Officials




                                             55.
APPENDIX E – Auditor’s Rebuttal


Crowe Horwath LLP, in consideration of the views presented by the management of International Relief
and Development, Inc. (“IRD” or the “auditee”), presents the following rebuttal to certain matters
presented by the auditee. The responses below are intended to clarify factual errors and provide context,
where appropriate, to assist users of the report in their evaluation of the audit report. In those instances
where management’s response did not provide new information and support to modify the facts and
circumstances that resulted in the initial finding, we have not provided a response. The absence of a
rebuttal indicates that Crowe does not deem it necessary to correct or clarify any response of the auditee.


Finding 2014-02

Crowe agrees with IRD regarding the Annual Report’s not having been required for the year ended
September 30, 2012. The portion of the finding pertaining to the Annual Report has been removed.


Finding 2014-03

Crowe disagrees with management’s conclusion that interest is not owed to the Government. IRD draws
funds down from the Government and deposits them into an account in the United States prior to making
disbursements in Afghanistan. Within the United States, interest-bearing accounts are available and the
funds should have been deposited into interest-bearing accounts pursuant to 22 CFR Part 226.22(k).

In addition, the calculation of interest owed to the Government resulted from two matters: 1) IRD’s not
depositing funds into an interest-bearing account; and 2) IRD’s holding excess cash. Irrespective of
administrative complications that IRD may have encountered in the field, the auditee is still required to
drawdown funds required for immediate cash needs and to make adjustments to drawdowns based on
current cash on-hand that may impact the estimated cash needs. Due to IRD’s not having disbursed
Federal funds drawn from the Government within the requisite time period, the imputed interest remains
payable.


Finding 2014-05

Crowe disagrees with IRD’s conclusion that 1) interest is not due to the Government and 2) the balance
of $11,657 is not due to the Government. Due to the co-pay funds meeting the definition of program
income and – pursuant to 22 CFR Part 226.24 and Section 1.8 of the cooperative agreement requiring
that program income be used to fund eligible program objectives and activities – the funds were available
and intended to supplement Federal dollars. Therefore, the program income amounts on-hand should
have been accounted for as available program cash when calculating the amount of funds for draw down
on the Letter of Credit. Due to IRD’s having retained the program income funds and not having disbursed
them for eligible program activities prior to drawing down additional Federal dollars, IRD held greater
program funds on-hand than were required or necessary to fund immediate cash needs, as mandated by
22 CFR Part 226.22.

Crowe agrees that the provision specified in 22 CFR Part 226.22(g) does not apply as the program
income was earned and paid in a foreign currency; that criterion has been removed from the finding. In
consideration of the matters referenced above, however, both the imputed interest and remaining co-pay
balance amount are payable to the Government irrespective of the currency type.

Crowe agrees with IRD’s statements indicating that the co-pay funds were to be used for AVIPA program
purposes as directed by USAID and the Afghanistan Government. This interpretation is consistent with
the program income regulations. Further, we note that USAID included the co-pay funds within a
“program income” categorization within Modification #24 to the cooperative agreement and did not specify
within the agreement or subsequent modifications that the funds were to be considered “cost share.”




                                                                                                        63.
Ergo, the conclusion referenced in the finding that the co-pay funds meet the definition of program income
remains unaltered.

Finding 2014-07

With regard to the procurement population matter, as referenced in the finding, 22 CFR Part 226.21
requires maintenance of financial records that contain information pertaining to all obligations and
unobligated balances. An obligation is defined as “the amounts of orders placed, contracts and grants
awarded, services received and similar transactions during a given period that require payment by the
recipient during the same or a future period.” Obligations result from IRD’s procurement procedures,
which culminate with orders being placed and grants and contracts being awarded. The lack of records
presenting a listing of all such obligations is, therefore, out of alignment with the requirements of 22 CFR
Part 226.21. Thus, the finding remains unaltered.

Crowe does not have the information necessary to comment regarding other auditors’ procedures and
reliance on the expenditure records to test procurement. Accordingly, we do not question or refute IRD’s
statement regarding other auditors’ practices.

Finding 2014-11

IRD stated that the organization does not agree with the recommendation to reimburse the Government
for the overcharge of indirect costs due to the NICRA for fiscal year 2013 not having been finalized.
Crowe notes that there is a remaining approved expenditure balance of $84,003 (the difference between
the budget of $503,083,989 in modification #24 and actual costs incurred per the Special Purpose
Financial Statement). The balance would be insufficient to absorb the indirect cost overrun. Per Section
II(D) of the NICRA, “If the final rate is greater than the provisional rate and there are no funds available to
cover the additional indirect costs, the organization may not recover all indirect costs.” Accordingly, the
amount of the indirect cost overrun ($929,103) remains in question and the finding is unmodified.

Finding 2014-12

As indicated by IRD, conflicting guidance was received from the U.S. Agency for International
Development, and the NICRA does not specify which accounts and cost elements are included within the
base of application (“Total Regular US Labor Costs”). Through ongoing communication with USAID,
USAID’s specifying which accounts were tested and accepted during review of IRD’s support for the
NICRA, and review of the support referenced by USAID and IRD’s underlying financial records, we were
able to conduct procedures sufficient to clear the portion of the finding pertaining to the application of the
NICRA.

The remainder of the finding, including the $3,708 in questioned costs due to IRD not having processed
the fringe benefit adjustment, remains unmodified.

Finding 2014-13

Crowe disagrees with IRD’s conclusion. Per the supporting documentation retained by IRD for the
currency translations pertaining to DASA (See Appendix B of this report) and communications with IRD
on May 29, 2014, and May 30, 2014, IRD utilized a foreign currency exchange rate extracted from
OANDA to convert Afghanis to U.S. dollars. The underlying amount requiring conversion was
denominated in Afghanis and converted to U.S. dollars for financial reporting purposes. This series of
events aligns with the definition of a foreign currency transaction under accounting principles generally
accepted in the United States of America. Accordingly, the finding is unmodified.




                                                                                                           64.
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
